APPENDICES TO THE PETITION

41

ORDER OF ELEVENTH CIRCUIT DENYING PETITIONER’S
APPENDIX A
APPEAL.
ORDER OF ELEVENTH CIRCUIT DENYING PETITIONER’S PETITION
APPENDIX B
FOR REHEARING
JUDGE MORENO’S FINAL ORDER DISMISSING FINAL CLAIM OF AGE
APPENDIX C
DISCRIMINATION.
JUDGE SELTZER’S THIRD REPORT &
RECOMMENDATION..........................

APPENDIX D

JUDGE MORENO'S ORDER DISMISSING SEVEN OUT OF
PETITIONER’S EIGHT CLAIMS............................................ APPENDIX E
JUDGE SELTZER’S SECOND REPORT &
RECOMMENDATION...............................

APPENDIX F

JUDGE MORENO’S ORDER DISMISSING PETITIONER’S
COMPLAINT.........................................................................

APPENDIX G

JUDGE SELTZER’S FIRST REPORT &
RECOMMENDATION..........................

APPENDIX H

COURT DOCUMENTS OF BARBARA BAER.

APPENDIX I

HACFL’S POSITION STATEMENT TO THE EEOC

APPENDIX J

LIST OF ADDITIONAL PROCEDURAL ABUSES COMMITTED BY
APPENDIX K
JUDGES MORENO AND SELTZER.

42

«

Appendix A

Case: 19-12094

Date Filed: 02/12/2020

Page: 1 of 20
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12094
Non-Argument Calendar
D.C. Docket No. 0:18-cv-61662-FAM

CAROLYN HICKS-WASHINGTON,
Plaintiff-Appellant,
versus
THE HOUSING AUTHORITY OF THE CITY
OF FORT LAUDERDALE,
Defendant-Appellee,
TAM ENGLISH,
Defendant.

Appeal from the United States District Court
for the Southern District of Florida
(February 12, 2020)

Case: 19-12094

Date Filed: 02/12/2020

Page: 2 of 20

Before JORDAN, NEWSOM and FAY, Circuit Judges.
PER CURIAM:
Carolyn Hicks-Washington, an African-American woman over the age of
40, appeals pro se the district court’s dismissal of her claims of race, color, and sex
discrimination, raised pursuant to Title VII and Florida state law, and its refusal to
reconsider that order. She also appeals the district court’s grant of summary
judgment to her former employer, the Housing Authority of the City of Fort
Lauderdale (the “Authority”), as to her remaining claim of age bias under the Age
Discrimination in Employment Act (“ADEA”). We affirm.
LBACKGROUND
Hicks-Washington was employed by the Authority from 2005 to 2015. She
was promoted to Assistant Director of Assisted Housing in 2010 and stayed in that
position until she was terminated in November 2015. When Hicks-Washington
asked why she was being terminated, she was told it was because the Authority
was moving in a “different direction.” Hicks-Washington learned that her
supervisor, Veronica Lopez, also was terminated. Lopez, like Hicks-Washington,
was over the age of 55.
Shortly after being terminated, Hicks-Washington applied for the newly
created position of Director of Housing Choice Voucher Program (“Director”);
however, she did not receive an interview, nor was she hired. The Authority

2

Case: 19-12094

Date Filed: 02/12/2020

Page: 3 of 20

contracted with the Miami Beach Development Corporation to temporarily fill the
position; when the Authority eventually filled the position, it hired Medina
Johnson, an African-American woman over the age of 40, who was 12 years
younger than Hicks-Washington. i
In April 2016, Hicks-Washington submitted an intake questionnaire to the
Equal Employment Opportunity Commission (“EEOC”) and alleged
discrimination based on race, color, national origin, sex, and age. However, the
Charge of Discrimination form that Hicks-Washington ultimately signed, verified,
and submitted to the EEOC only alleged that she was terminated from her position
and not hired as Director because of discrimination based on age. The Authority
reported to the EEOC that Hicks-Washington had been terminated and not rehired
because of her “harsh management style” that decreased employee morale and
resulted in high employee turnover and instability. The EEOC issued HicksWashington a Right to Sue letter.
Hicks-Washington filed the present suit in Florida state court. She alleged,
in part, claims of race, color, sex, and age discrimination, as well as state tort law

1 After Johnson left the position in March 2017, Hicks-Washington re-applied for the position
and did not get an interview. In May 2017, Barbara Baer, who is four years older than HicksWashington, filled the position of Director.
3

Case: 19-12094

Date Filed: 02/12/2020

Page: 4 of 20

claims against the Authority.2 The Authority removed the suit to federal court and
filed a motion to dismiss. A magistrate judge, in a report and recommendation
(“R&R”), recommended granting the motion to dismiss and characterized HicksWashington’s complaint as a “shotgun” pleading. The district court overruled
Hicks-Washington’s objections to die R&R and dismissed the complaint with
leave to amend. Hicks-Washington objected to the dismissal, stating that she was
“aware of the [cjourt’s historical anti-black, anti-poor and pro-employer biases.”
She also stated that the district court judge should recuse himself if the “legal
arguments and evidence presented are meaningless to [him].”
Before the district court could address the objection, Hicks-Washington filed
an amended complaint. The revised counts were disparate impact on the basis of
race or color, in violation of Title VTI, 42 U.S.C. § 2000e-2(k) (Count 1);
individual disparate treatment “on the basis of her race, color, and/or sex,” and
retaliation, in violation of Title VH (Counts 2 and 3); discrimination and retaliation
“on the basis of her race and/or color,” in violation of 42 U.S.C. § 1981 (Counts 4
and 5); discrimination on the basis of age, in violation of the ADEA (Count 6);
retaliation on the basis of age, in violation of the ADEA (Count 7); and
discrimination “on the basis of her race, color, sex, and/or age,” in violation of the

2 While Hicks-Washington also named the Authority’s Executive Director, Tam English, as a
defendant in her initial complaint; English was omitted as a defendant from her amended
complaint.
4

Case: 19-12094

Date Filed: 02/12/2020

Page: 5 of 20

Florida Civil Rights Act (“FCRA”) (Count 8). She also alleged that Tam English,
the Authority’s Executive Director, stated, on multiple occasions, that HicksWashington was “getting older” and inquired about who she thought should
replace her from within the Authority.
The Authority answered, denied liability, and asserted defenses as to HicksWashington’s age discrimination claim (Count 6). With respect to the remaining
counts, it moved to dismiss her amended complaint and to strike certain
paragraphs. The Authority argued, in part, that Hicks-Washington’s disparate
impact claim (Count 1), Title VII discrimination and retaliation claims (Counts 2
and 3), ADEA retaliation claim (Count 7), and FCRA claims (Count 8) should be
dismissed for failure to exhaust administrative remedies because she did not
include them in her EEOC charge.
Hicks-Washington opposed the motion to dismiss and, in addition to
reiterating her previous arguments, asserted that the administrative exhaustion
argument was “frivolous.” She admitted that her son had noticed that the EEOC
had narrowed the scope of her charge to just age discrimination and had warned
her that she would be barred from advancing her other claims in federal court. She
stated that she had tried to put the claims back in, but the EEOC investigator
verbally told her that she could “only pursue claims of age discrimination.” She

5

Case: 19-12094

Date Filed: 02/12/2020

Page: 6 of 20

stated that while she signed the EEOC charge to prevent further delay, she
continued to advance her claims of race, color, and sex discrimination.
The magistrate judge issued a second R&R, recommending that the district
court dismiss Counts 1, 2, 3, 7, and 8 because Hicks-Washington failed to exhaust
her administrative remedies. It also concluded that Counts 4, 5, and 7 failed to
state a claim upon which relief could be granted and recommended dismissing
those counts. Hicks-Washington did not formally object to die second R&R;
however, in a pro se motion and amended motion, she sought to disqualify the
magistrate judge and vacate his three most recent decisions due to the appearance
of, or actual, bias.
The district court adopted the second R&R after noting that it had “reviewed
the entire file and record.” While it stated that no objections to the second R&R
were filed, it noted that Hicks-Washington’s motion to disqualify die magistrate
judge and the subsequent amended motion were denied. In a February 2019 order,
it dismissed all counts with prejudice except the age discrimination claim (Count
6), explaining that Hicks-Washington had “again failed to allege any facts that
would establish a basis for relief’; it also stuck certain paragraphs from the
amended complaint.
Hicks-Washington filed a motion pursuant to Federal Rule of Civil
Procedure 59(e) for the court to reconsider or amend the order adopting the second

6

Case: 19-12094

Date Filed: 02/12/2020

Page: 7 of 20

R&R. The district court denied the motion, stating that it had considered the
motion, the response in opposition, the reply, and pertinent portions of record.
In the meantime, the Authority moved for summary judgment.3 With
respect to Count 6, the age discrimination claim, it argued that, under the burdenshifting framework set forth in McDonnell Douglas Corp. v. Green, 411 U.S. 792,
93 S. Ct. 1817 (1973), even if Hicks-Washington could establish a prima facie case
for age discrimination, it had legitimate, non-discriminatory, non-retaliatory
reasons for firing her, specifically a need to “reducfe] employee turnover,
improvje] employee morale, and facilitate] a stable workforce,” because she had
an “oppressive” management style and could not keep a stable staff. It further
argued that Hicks-Washington was unable to rebut its articulated reasons for
terminating her, failing to prove that those reasons were pretextual and to show
that age discrimination was a “but for” cause of her termination.
Hicks-Washington opposed the motion for summary judgment.4 She
argued, in relevant part, that the Authority never disclosed employee turnover

3 The Authority filed the motion for summary judgment prior to the district court’s dismissal of
Counts 1,2, 3,4, 5, 7, and 8 and sought summary judgment as to those counts. However,
because the district court ultimately dismissed those counts, we do not discuss the arguments
concerning them.
4 Hicks-Washington also moved for partial summary judgment, which the district court denied.
Because she fails to challenge that ruling on appeal, any issues in that respect are abandoned.
See Timson v. Sampson, 518 F.3d 870, 874 (11th Cir. 2008) (recognizing that although we read
briefs by pro se litigants liberally, issues not briefed on appeal are deemed abandoned).
7

Case: 19-12094

Date Filed: 02/12/2020

Page: 8 of 20

statistics, and it failed to distinguish between the employees that quit and the
employees that were terminated from her department. She argued that the hiring
process was not “fair and impartial” because women who were less qualified than
her were hired as Director. She also asserted that Johnson resigned so that Barbara
Baer, whom Hicks-Washington argued was English’s intended replacement all
along, could assume the position. She argued that she presented direct evidence of
English’s age discrimination in his comments about her “getting older.” She
argued that the Authority’s reasons for firing her and not rehiring her were
pretextual. Finally, in response to the Authority’s argument that her age must have
been a “but for” cause, she argued that the ADEA cannot be so narrowly construed
that age must have been the sole factor for file adverse employment decision.
The magistrate judge filed a third R&R, recommending that file district court
grant summary judgment to die Authority on Hicks-Washington’s ADEA
discrimination claim. The judge found that there was no direct evidence of age
discrimination because English’s alleged comments did not rise to the level
required, and it applied the modified McDonnell Douglas framework for cases
where a position was eliminated entirely. The judge found that Hicks-Washington
presented a prima facie case of age discrimination, but the Authority proffered
legitimate, non-discriminatory reasons for her termination: to reduce employee
turnover, improve employee morale, and facilitate a stable workforce. Hicks-

8

Case: 19-12094

Date Filed: 02/12/2020

Page: 9 of 20

Washington objected; however, after conducting a de novo review, the district
court adopted the third R&R and granted the Authority’s motion for summary
judgment.
Following entry of a final judgment in favor of the Authority in May 2019,
Hicks-Washington timely filed an amended notice of appeal identifying: (i) the
February 2019 order dismissing many of her claims; (ii) the April 2019 denial of
i

her motion for reconsideration; (iii) the grant of summary judgment to the
Authority; and (iv) the judges’ refusal to recuse or disqualify themselves.
n. DISCUSSION
A. Dismissal of Race, Color, and Sex Discrimination Claims
On appeal, Hicks-Washington argues that the district court erred by
dismissing her claims of race, color, and sex discrimination as untimely because
she foiled to exhaust her administrative remedies.5 We review de novo the district
court’s grant of a motion to dismiss for failure to state a claim under Federal Rule
of Civil Procedure 12(b)(6), accepting the allegations in the complaint as true and
construing them in the light most favorable to the plaintiff. Timson v. Sampson,
518 F.3d 870, 874 (11th Cir. 2008). We review the denial of a Federal Rule of

3 On appeal, Hicks-Washington does not expressly challenge the district court’s dismissal of
Counts 4, 5, and 7; accordingly, any arguments as to those counts are considered abandoned. See
Timson, 518 F.3d at 874. Likewise, while she argued before the district court that her FCRA age
discrimination claim should not have been dismissed, she does not argue that in her initial brief;
consequently, that argument also was abandoned. See id.
9

Case: 19-12094

Date Filed: 02/12/2020

Page: 10 of 20

Civil Procedure 59(e) motion for abuse of discretion. Jacobs v. Tempur-Pedic
Int’l, Inc., 626 F.3d 1327, 1343 n.20 (11th Cir. 2010). The only grounds for
granting a Rule 59(e) motion are newly discovered evidence or manifest errors of
law or fact. See id. at 1344 (quoting Arthur v. King, 500 F.3d 1335, 1343 (11th
Cir. 2007)). A Rule 59(e) motion cannot be used to relitigate old matters, raise
arguments, or present evidence that could have been raised prior to the entry of
judgment. Id. Pro se pleadings are held to a less-strict standard than counseled
pleadings and are liberally construed. Alba v. Montford, 517 F.3d 1249, 1252
(11th Cir. 2008).
Title VII prohibits employers from discriminating against employees based
on their “race, color, religion, sex, or national origin.” 42 U.S.C. § 2000e-2(aXl).
Claims under the FCRA are analyzed in the same way as Title VII claims. See
Wilbur v. Corr. Servs. Corp., 393 F.3d 1192, 1195 n.l (11th Cir. 2004).
Prior to filing a Title VII action, a plaintiff first must file a charge of
discrimination with the EEOC. Gregory v. Ga. Dep’t of Human Res., 355 F.3d
1277, 1279 (11th Cir. 2004). The purpose of this exhaustion requirement “is that
the [EEOC] should have the first opportunity to investigate the alleged
discriminatory practices to permit it to perform its role in obtaining voluntary
compliance and promoting conciliation efforts.” Id. (alteration in original)
(quoting Evans v. US. Pipe & Foundry Co., 696 F,2d 925, 929 (11th Cir. 1983)).

10

Case: 19-12094

Date Filed: 02/12/2020

Page: 11 of 20

We have “noted that judicial claims are allowed if they ‘amplify, clarify, or more
clearly focus’ the allegations in the EEOC complaint, but [have] cautioned that
allegations of new acts of discrimination are inappropriate. Id. at 1279-80 (quoting
fVuv. Thomas, 863 F.2d 1543, 1547 (11th Cir. 1989)). Therefore, a “plaintiff^
judicial complaint is limited by the scope of the EEOC investigation which can
reasonably be expected to grow out of the charge of discrimination,” but “the
scope of an EEOC complaint should not be strictly interpreted.” Id. at 1280 (first
quoting Alexander v. Fulton Cty., 207 F.3d 1303,1332 (11th Cir. 2000); then
quoting Sanchez v. Standard Brands, Inc., 431 F.2d 455, 465 (5th Cir. 1970)).
Although we have allowed an intake questionnaire to function as a charge in
limited circumstances, we also have stated that “as a general matter an intake
questionnaire is not intended to function as a charge.” Pijnenburg v. W. Ga.
Health Sys., Inc., 255 F.3d 1304, 1305 (11th Cir. 2001) (emphasis added). In Bost
v. Federal Express Corp., 372 F.3d 1233 (11th Cir. 2004), we held that the
circumstances did not support a conclusion that the questionnaire should be
considered a charge because the plaintiff clearly understood that the intake
questionnaire was not a charge. There, the plaintiff had later filed a timely charge,
the EEOC did not initiate its investigation until after the plaintiff had filed his
charge, and the questionnaire form did not suggest that it was a charge. See id. at
1236,1240-41.

11

Case: 19-12094

Date Filed: 02/12/2020

Page: 12 of 20

Hicks-Washington’s EEOC charge was undisputedly limited to the age
discrimination claim; she admitted that she signed it knowing that doing so would
bar her other claims. Similar to Bost, this is not a situation in which her intake
questionnaire should function as a charge because she signed the charge after filing
the intake questionnaire. See id. at 1240-41. Because she clearly failed to exhaust
her administrative remedies with respect to any claims other than age
discrimination, she could not bring her Title VII claims for race, color, or sex
discrimination in federal court.6 See Gregory, 355 F.3d at 1279. Similarly, to the
extent that Hicks-Washington challenges the denial of her Rule 59(e) motion for
reconsideration, the district court did not abuse its discretion by denying relief
because she presented no new evidence and there were no manifest errors of law or
fact. See Jacobs, 626 F.3d at 1344. Therefore, we affirm in this respect.
B. Grant of Summary Judgment on ADEA Claim
Hicks-Washington also argues that the district court erred by concluding that
English’s comments about her “getting older” did not rise to the level of direct
evidence of age discrimination and that the Authority’s reasons for terminating her
and not rehiring her were not pretextual. We review de novo the district court’s

6 Hicks-Washington argues for the first time in her reply brief that her 42 U.S.C. § 1981 and
retaliation claims were not subject to the same procedural requirements of administrative
exhaustion. Those arguments were not properly raised and therefore are considered abandoned.
Timson, 518 F.3d at 874 (“[W]e do not address arguments raised for the first time in a pro
se litigant’s reply brief.”).
12

Case: 19-12094

Date Filed: 02/12/2020

Page: 13 of 20

grant of summary judgment and apply the same legal standard used by die district
court. Chapman v. A1 Transport, 229 F.3d 1012, 1024 (11th Cir. 2000) (en banc).
Summary judgment “is appropriate if die evidence before the court shows that
there is no genuine issue as to any material fact and that the moving party is
entitled to a judgment as a matter of law.” Id. at 1023 (quoting Haves v. City of
Miami, 52 F.3d 918, 921 (11th Cir. 1995)). All evidence and factual inferences
reasonably drawn from the evidence are viewed in the light most favorable to the
party opposing summary judgment. Id. The party opposing summary judgment
must present more than a scintilla of evidence in support of its position so that a
jury can reasonably find for it. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252,
106 S. Ct. 2505,2512 (1986). We “may examine only the evidence which was
before the district court when [it] decided the motion for summary judgment” and
no subsequent evidence. Chapman, 229 F.3d at 1026.
Under the ADEA, it is “unlawful for an employer... to fail or refuse to hire
or to discharge any individual.. . because of [her] age.” 29 U.S.C. § 623(a)(1);
Chapman, 229 F.3d at 1024. ADEA liability depends on whether age actually
motivated the employer’s decision, i.e., “the plaintiff’s age must have actually
played a role in the employer’s decisionmaking process and had a determinative
influence on the outcome.” Chapman, 229 F.3d at 1024 (quoting Reeves v.
Sanderson Plumbing Products, Inc., 530 U.S. 133, 141, 120 S. Ct. 2098, 2105

13

Case: 19-12094

Date Filed: 02/12/2020

Page: 14 of 20

(2000)). “A plaintiff may establish a claim of illegal age discrimination through
either direct evidence or circumstantial evidence.” Van Voorhis v. Hillsborough
Cty. Bd. ofCty. Comm’rs, 512 F.3d 1296, 1300 (11th Cir. 2008) (citing Carter v.
City ofMiami, 870 F.2d 578, 581 (11th Cir. 1989)).
Direct evidence of discrimination is evidence which, if believed, proved the
existence of a fact without inference or presumption. Carter, 870 F.2d at 581-82.
However, “not every comment concerning a person’s age presents direct evidence
of discrimination.” Id. at 582. “Only the most blatant remarks, whose intent could
be nothing other than to discriminate on the basis of age, constitute direct evidence
of discrimination.” Van Voorhis, 512 F.3d at 1300 (alterations omitted) (quoting
Carter, 870 F.2d at 582). For example, a supervisor’s statements that he “didn’t
want to hire any old pilots” and was not going to interview applicants because “he
didn’t want to hire an old pilot” were held to be direct evidence of age
discrimination. Id. By contrast, a decisionmaker’s comments that “the company
needed... aggressive young men ... to be promoted” did not constitute direct
evidence of age discrimination. See Damon v. Fleming Supermarkets ofFla., Inc.,
196 F.3d 1354, 1359 (11th Cir. 1999).
As the district court correctly found, even assuming arguendo that English
commented that Hicks-Washington was “getting older,” his comments were not
among the “most blatant remarks.” See Van Voorhis, 512 F.3d at 1300. The

14

Case: 19-12094

Date Filed: 02/12/2020

Page: 15 of 20

Authority explained that any statements about replacing Hicks-Washington would
have been in the context of succession planning. Even if viewed as evidence that
may lead to an inference of age discrimination, it fells short of the direct evidence
requirement. See Carter, 870 F.2d at 581-82; see also Van Voorhis, 512 F.3d at
1300.
Because Hicks-Washington’s case relies on circumstantial evidence, the
McDonnell Douglas framework applies. See Chapman, 229 F.3d at 1024. Under
that framework, if a plaintiff establishes a prima facie case of discrimination, and
the employer articulates one or more non-discriminatory reasons for its actions, the
plaintiff must show that the employer’s articulated reasons were pretextual. Id. “If
the plaintiff does not proffer sufficient evidence to create a genuine issue of
material fact regarding whether each of the defendant employer’s articulated
reasons is pretextual, the employer is entitled to summary judgment on the
plaintiff’s claim[s].” Id. at 1024-25.
A reason is pretextual only if it is false and the true reason for the decision is
discrimination. Springer v. Convergys Customer Mgmt. Grp. Inc., 509 F.3d 1344,
1349 (11th Cir. 2007). If the employer’s reason is “one that might motivate a
reasonable employer, an employee must meet that reason head on and rebut it, and
the employee cannot succeed by simply quarreling with the wisdom of that
reason.” Chapman, 229 F.3d at 1030. We have repeatedly stated that we will not

15

Case: 19-12094

Date Filed: 02/12/2020

Page: 16 of 20

second-guess die wisdom of an employer’s decision as long as the decision is not
for a discriminatory reason. See id.
It is undisputed that Hicks-Washington established a prima facie case for age
discrimination. The Authority’s articulated reason for terminating and not rehiring
Hicks-Washington was her “oppressive” management style evidenced by the
particularly high employee turnover in her division, negative comments in her
supervisor reviews, and four exit interviews from the year in which she was
terminated that stated she was a reason that those employees left. Accordingly, the
Authority successfully met its burden of proffering a legitimate, nondiscriminatory reason for terminating and not rehiring Hicks-Washington and the
burden shifted back to Hicks-Washington to demonstrate that the articulated reason
was pretextual.
While some of the people hired for the Director position were indeed
younger than Hicks-Washington, the person that filled the position in 2017 was
four years older than she was. Furthermore, neither the other candidates’ ages nor
English’s alleged comments showed that the Authority’s reasons were pretextual.
At most, this presents a mere scintilla of evidence of bias, which is insufficient.
See Anderson, 477 U.S. at 252, 106 S. Ct. at 2512. Even if her performance
reviews were mostly positive, the evidence and her conclusoiy assertions were
insufficient to show that the Authority’s proffered reasons were pretext. Hicks-

16

Case: 19-12094

Date Filed: 02/12/2020

Page: 17 of 20

Washington’s arguments on appeal would lead us to impermissibly second-guess
the wisdom of the Authority’s decision. See Chapman, 229 F3d at 1030.
Therefore, we affirm the grant of summary judgment.
C. Denial of Requests for Recusal or Disqualification
Hicks-Washington also contends that the district court judge and magistrate
judge should have recused themselves or been disqualified. We review a district
court’s denial of a recusal motion for abuse of discretion. Loranger v. Stierheim,
10 F.3d 776, 779 (11th Cir. 1994). Under 28 U.S.C. § 144, a judge must recuse
himself when a party “files a timely and sufficient affidavit that the judge ... has a
personal bias or prejudice either against him or in favor of any adverse party.” 28
U.S.C. § 144. To warrant recusal, “the moving party must allege facts that would
convince a reasonable person that bias actually exists.” Christo v. Padgett, 223
F.3d 1324, 1333 (11th Cir. 2000). Similarly, under 28 U.S.C.§ 455(a), a judge
must “disqualify himself in any proceeding in which his impartiality might
reasonably be questioned.” 28 U.S.C. § 455(a). We look to “whether an objective,
disinterested, lay observer fully informed of the facts underlying the grounds on
which recusal was sought would entertain a significant doubt about the judge’s
impartiality.” Parker v. Connors Steel Co., 855 F.2d 1510, 1524 (11th Cir. 1988).
A judge’s rulings in die same or a related case may not serve as the basis for a
recusal motion unless the movant demonstrates “pervasive bias and prejudice.”

17

Case: 19-12094

Date Filed: 02/12/2020

Page: 18 of 20

McWhorter v. City of Birmingham, 906 F.2d 674, 678 (11th Cir. 1990) (holding
that allegations of bias stemming from a mere disagreement with rulings at trial did
not demonstrate pervasive bias and prejudice).
Here, Hicks-Washington offered no evidence of personal bias by the judges
that would sustain a doubt about their respective impartiality. Instead, her
allegations of bias stemmed from a mere disagreement with their judicial rulings
and her dissatisfaction with the characterization of her complaint as a “shotgun”
pleading. See id. While the district court stated that there were no objections to
the second R&R, it explained that it had reviewed the entire record and noted that
Hicks-Washington had filed motions, which were denied. One of those motions
contained what could be liberally construed as objections to the second R&R, but
these arguments were made in the context of her motion to disqualify the
magistrate judge and were not clearly objections. As such, her allegations are not
sufficient to cause an objective, disinterested, lay observer to entertain a significant
doubt about the court’s impartiality. See Parker, 855 F.2d at 1524. Therefore, we
affirm in this respect.
AFFRIMED.

18

Case: 19-12094

Date Filed: 02/12/2020'

Page: 19 of 20

JORDAN, Circuit Judge, concurring:
I write separately to note that in certain tircumstances where the EEOC or a
state agency has been negligent in filling out a plaintiffs charge, the plaintiff may
be able to rely on an intake questionnaire to show that her claim was properly
exhausted. See B.K.B. v. Maui Police Dep’t, 276 F.3d 1091,1102 (9th Cir. 2002), as
amended (Feb. 20, 2002).
In B.K.B., the Ninth Circuit concluded that the plaintiff properly exhausted
her federal sexual harassment claims based on the checked boxes in her charge, the
information in her pre-complaint questionnaire, and the affidavit of the state agency
representative who had assisted in preparing the charge. See id. at 1103. The
plaintiff had checked boxes in her charge indicating that she had been subject to race,
national origin, and sexual discrimination as well as harassment, but the defendants
argued that her charge allegations were insufficient to support her claims of sexual
discrimination and sexual harassment. See id. at 1100-01. The Ninth Circuit
concluded that the plaintiffs intake questionnaire included examples of harassment
that encompassed harassment based on sex and race, and that it provided additional
detail to the allegations of which the state agency was on notice. See id. at 110102. And it noted that the agency official who had assisted the plaintiff submitted an
affidavit suggesting that any deficiency in the charge should be attributed to the
agency and not the plaintiff. See id. at 1103.

19

Case: 19-12094

Date Filed: 02/12/2020

Page: 20 of 20

B.K.B. provides some persuasive support for the proposition that a plaintiff
can present the pre-complaint intake questionnaire to satisfy the exhaustion
requirement when the EEOC or state agency negligently or improperly narrows her
claims. See id at 1102. But that case does not help Ms. Hicks-Washington here
because she knowingly signed a charge that did not check boxes for or provide
allegations of discrimination based on race, color, and sex. Indeed, she admits that
she was informed that signing a charge of only age discrimination would preclude
her from advancing her other claims in federal court.

20

g xjpuaddv

Case: 19-12094

Date Filed: 04/23/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-12094-CC
CAROLYN HICKS-WASHINGTON,
Plaintiff - Appellant,
versus
THE HOUSING AUTHORITY OF THE CITY
OF FORT LAUDERDALE,
Defendant - Appellee,
TAM ENGLISH,
Defendant.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITIONS FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: JORDAN, NEWSOM, and FAY, Circuit Judges.
PER CURIAM:
Hie Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

Appendix C
*

Case 0:18-cv-61662-FAM Document 78 Entered on FLSD Docket 05/31/2019 Page 1 of 4

UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
Fort Lauderdale Division
Case Number: 18-61662-CIV-MORENO
CAROLYN HICKS-WASHINGTON,
Plaintiff,
vs.

THE HOUSING AUTHORITY OF THE CITY
OF FORT LAUDERDALE,
Defendants.
ORDER ADOPTING MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION.
ORDER DENYING PLAINTIFFS MOTION FOR PARTIAL SUMMARY JUDGMENT,
AND ORDER GRANTING DEFENDANT'S MOTION FOR SUMMARY JUDGMENT
THE MATTER was referred to the Honorable Barry S. Seltzer, United States Magistrate
Judge, for a Report and Recommendation on Plaintiffs Motion for Partial Summary Judgment and
Defendant's Motion for Summary Judgment, both filed on February 25. 2019. The Magistrate
Judge filed a Report and Recommendation (D.E. 70) on Mav 6.2019. The Court has reviewed
the entire file and record. The Court has made a de novo review of the issues that the objections
to the Magistrate Judge’s Report and Recommendation present, and being otherwise fully advised
in the premises, it is
ADJUDGED that United States Magistrate Judge Barry S. Seltzer’s Report and
Recommendation is AFFIRMED and ADOPTED.
I. Analysis
This is an employment discrimination action brought by Plaintiff, Carolyn HicksWashington, against Defendant, The Housing Authority of the City of Fort Lauderdale. Plaintiff s

Case 0:18-cv-61662-FAM Document 78 Entered on FLSD Docket 05/31/2019 Page 2 of 4

Amended Complaint alleges discrimination on the basis of age, race, and sex, as well as
retaliation, in violation of Title VII of the Civil Rights Act of 1964,42 U.S.C. § 2000e2(a)(1), the Age Discrimination in Employment Act, 29 U.S.C. §§ 621-634, the Florida
Civil Rights Act, Fla. Stat. §§ 760.01 -.11, and 42 U.S.C. § 1981. The Court entered an
Order dismissing with prejudice Counts I, II, III, IV, V, VII, and VIII of Plaintiffs
Amended Complaint. As a result, the only claim currently before the Court is Plaintiffs
claim for age discrimination under the ADEA. Both parties moved for summary judgment
on Plaintiffs age discrimination claim.
Plaintiff was employed by Defendant from August 10, 2005 until November 13,
2015. In 2010 she was promoted to Assistant Director of Assisted Housing. On November
15, Plaintiff was terminated and was told that the agency was moving in another direction;
Plaintiff was over the age of 55 at the time. On November 23, 2015, Plaintiff applied for
Director of Housing Choice Voucher Program, however she was not hired. Defendant
hired Medina Johnson who was 12 years younger than Plaintiff. Plaintiff re-applied for
the position once Johnson left, however they hired Barbara Bear who is 4 years older.
Plaintiff has not established direct evidence of age discrimination. Plaintiff asserts
that Tam English made statements to her and her co-worker that they were “getting older”
and asked who would replace them. In her objections, Plaintiff contends that these remarks
are direct evidence of discrimination, however, the Court disagrees. Defendant denies that
these remarks were made, however, even if they were said, they do not rise to the requisite
level to establish direct evidence of discrimination. See Van Voorhis v. Hillsborough
Countv Bd. of Countv Comm’rs. 512 F.3d 1296, 1300 (11th Cir. 2008).
On the date of her termination, Plaintiff was 55 years old, had been performing her

2

Case 0:18-cv-61662-FAM Document 78 Entered on FLSD Docket 05/31/2019 Page 3 of 4

job for many years, and was qualified for the position. Within days following her termination,
Plaintiff applied for the re-defined and renamed Director position held by her former supervisor,
but she was not hired. Defendant ultimately hired a woman (Medina Johnson) who was over the
age of 40, yet 12 years younger than Plaintiff. Through these facts, Plaintiff establishes a prima
facie case. See Jameson v. Arrow Co.. 75 F.3d 1528, 1531 (11th Cir. 1996).
Defendant submits that Plaintiff was terminated because her oppressive management style
led to high rates of turnover that reached nearly 75% the year she was terminated and caused
staffing problems for Defendant. Reducing employee turnover, improving employee morale, and
facilitating a stable workforce are legitimate concerns. The Court holds that Defendant’s proffered
reason for terminating Plaintiff meets the test for being one that might motivate a reasonable
employer. See Chapman v. A1 Transport. 229 F.3d 1012,1024 (11th Cir. 2000). The Court also
holds the reason is non-discriminatory.
As Defendant has met its burden, Plaintiff must “come forward with evidence, including
the previously produced evidence establishing the prima facie case, sufficient to permit a
reasonable factfinder to conclude that the reasons given by the employer were not the real reasons
for the adverse employment decision.” Id. at 1025. Plaintiff argues that Defendant’s concerns
about her management style were never addressed with her and are contradicted by the positive
performance reviews. Plaintiff further argues that Defendant has never distinguished between
employees who left their employment voluntarily and employees who were terminated
involuntarily. Plaintiff argues, therefore, that Defendant cannot properly attribute the turnover rate
to her management style. Next, Plaintiff argues that the four negative employee exit interviews
proffered by Defendant constitute a small fraction of terminated employees and, therefore, are
insufficient to establish that her management style contributed to or caused the alleged high

3

Case 0:18-cv-61662-FAM Document 78 Entered on FLSD Docket 05/31/2019 Page 4 of 4

employee turnover. Finally, she argues that of the 60 employees who left during the time
she was there, 58% held the occupancy specialist position. She contends that those
employees were directly supervised by the occupancy specialists supervisors, and therefore
Plaintiff is not responsible for the turnover; however, an organizational chart shows that
the Occupancy Specialists were in Plaintiffs chain of command. She reasons, therefore,
that Defendant’s proffered reasons for her termination are merely pretextual. We hold and
agree with Magistrate Judge Seltzer that Plaintiff has failed to establish that the reasons
given by Defendant for her termination are pretextual. Plaintiff has not preferred any
evidence that would call into question the geniuses of Defendant’s concerns for the
turnover, morale, and workforce stability in Plaintiffs department, therefore, Plaintiff
cannot avoid summary judgment.
IL Conclusion
Plaintiff has failed to produce the significantly probative evidence that is required
to rebut Defendant’s legitimate, nondiscriminatory reasons for her termination and avoid
summary judgment. Accordingly, it is ADJUDGED that Plaintiffs Motion for Partial
Summary Judgment is DENIED and Defendant's Motion for Summary Judgment is
GRANTED.
DONE AND ORDERED in Chambers at Miami, Florida, this

of May 2019.

FEDERICO'A^
ENO
UNITED STAfES DISTRICT JUDGE
Copies furnished to:
United States Magistrate Judge Barry S. Seltzer
Counsel of Record
Carolyn Hicks-Washington PRO SE
3613 Lime Hill Road, Lauderhill, FL 33319

4

mi n“* m

et im$

u!r,}ti~/fz*jiiu8:o:f bK0*8lJ.

,

.

£Ofltfif.J 0|. #CaKtj
glare?
C;t>&re^ i/j/.wjapcq so.

T[/jqSs ysu^. g’
O'/OaD H i VJ.K8

1.11'DCs

,*'**i.

Duvst wd OKtiEKP.O'^ c*««P<*' ,t trtit»crr cv; •

• *

A '■^W- jiHu
V

■<':/' ~ ;J.K*v

jmwi'jO inq&uicuf f? OKMIE2) ^ D«4«a»qt?ut(a y^ofiou 40:. gmiiuretX ■wiqgtrbuj 12
muufs# luqguifr'jr . vecoiqruSfX* « J» VDlfiliCEEMP** &!**»«?&* i^oiioy 401 j^ui»|
**" Wfm DGit&qvtttji ic%u*KMr BCwq^etiUOpsttOiX ic^oaz 401 pet foiaiUBiicaj 3aq SAotq
yswffy. psre ptjcq ro braqiics tgo «AB»(«aRfl|X htepstiAc GAKjsuec tjoj. 12 tedrracq
irceusqEap®

rmiuoi »Ad?q znwujv-XlacjFtijJSiJi ■

-■

(iwto/m- woisqr wq MOtfjoa*: 'aispt|«> ur bP»oi!4L8 $6t««W€»r

fcfyuiin^

r.Ai^cofte ipse M.orqq csjr p& 4rr$d{tuu qie .geameec 64 £)ej.c»qsnjf,g coomtrtt gy. ipe
3i/4W pX f>qcuq8»t 4ol pet ieu«it«jqcy-wir btcjetf.mr}- |»|3|oif&-psia MOf btsiGusq awX
s&tce //.jtp pjsip?it£rf© Tiiqfic geps« tjm jjliqytili ps? $n«q ro cajappp jpsi fpc imoui*
‘tpsrfoqpifqwir.? bioystcq icaaoira (otpei (summiKs moretefX basis'/rrt?j‘ #ts pojq0W|
ipe Qccrdj'ftie?. gbcejapap am;u m fcpnum,* cjnrtv '14 eoipraisuq- gpc i£320y*' iprtqpAe*
yarapE. i? war mbnimpp 401 me (buioaci: jiomcaq.* stt as&bujssijofsq cpm* syo/m fp»r
etubjoXcc? j*as qjt&cq}. zrtjev.i^cq p* ipsPccnbsucX *bst J8f?zr& wtf/eu-j'ubtz4 8wqjpei6.t.o..<;
spe ms? rpei/r

pejq rjre ocnnbquc?. zbsqsqar fcosftrair gpc eoureoqz jpst ipose

*ujbio>fie thimmc kiusjjX* >,p$ sr&K3 {psj. o^pc §^«iflb{ftX©w wpo fep qm«j? fpe mm

/■

• , f

,.

\ r.

!

- i,:

£:

Appendix D

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 1 of 16

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-61662-CIV-MORENO/SELTZER
CAROLYN HICKS-WASHINGTON,
Plaintiff,
vs.
THE HOUSING AUTHORITY OF THE
CITY OF FORT LAUDERDALE,
Defendant.
REPORT AND RECOMMENDATION ON
MOTIONS FOR SUMMARY JUDGMENT
THIS CAUSE has come before the Court upon Plaintiffs Motion for Partial
Summary Judgment (“Plaintiff’s Motion”) [DE 47] and Defendant’s Motion for Summary
Judgment (“Defendant’s Motion”) [DE 44]. The District Court entered an Order of Referral
[DE 6] referring all pretrial matters to the undersigned for appropriate disposition or
recommendation pursuant to 28 U.S.C. § 636(b) and the Magistrate Judge Rules of the
United States District Court for the Southern District of Florida. For the reasons set forth
below, the undersigned RECOMMENDS that Plaintiff’s Motion [DE 47] be DENIED and
that Defendant’s Motion [DE 44] be GRANTED.
BACKGROUND
A.

Procedural History

This is an employment discrimination action brought by Plaintiff, Carolyn HicksWashington (“Plaintiff”), against Defendant, The Housing Authority of the City of Fort
Lauderdale (“Defendant” or “HACFL”). Plaintiff’s Amended Complaint [DE 12] alleges

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 2 of 16

discrimination on the basis of age, race, and sex, as well as retaliation, in violation of Tile
VII of the Civil Rights Act of 1964, 42 U.S.C. § 2000e-2(a)(1), the Age Discrimination in
Employment Act, 29 U.S.C. §§ 621-634 (the “ADEA”), the Florida Civil Rights Act, Fla.
Stat. §§ 760.01 -.11, and 42 U.S.C. § 1981.
Defendant filed a Motion to Dismiss [DE 14] the Amended Complaint, which the
undersigned recommended be granted in part and denied in part [DE 34]. Based upon a
review of Plaintiffs Amended Complaint and the relevant law, the undersigned concluded
that Plaintiff had failed to state a claim upon which relief could be granted and
recommended dismissal of all but Plaintiffs age discrimination claim (Count VI of the
Amended Complaint). No objections to the Report and Recommendation [DE 34] were
filed, and on February 26,2019, the District Court entered an Order [DE 46] affirming and
adopting the Report and Recommendation and dismissing with prejudice Counts I, II, III,
IV, V, VII, and VIII of Plaintiffs Amended Complaint.1 As a result, the only claim currently
before the Court is Plaintiffs claim for age discrimination under the ADEA. Both parties
have now moved for summary judgment on Plaintiffs age discrimination claim.

10n March 18,2019, Plaintiff filed a Motion to Reconsider and Alter or Amend the Court’s
February 25, 2019 Order [DE 57], which was denied [DE 69] on April 30, 2019. Plaintiff
contends that her original submission to the EEOC raised claims for race and sex
discrimination but that the EEOC officer drafted a Charge of Discrimination that raised
only an age discrimination claim [DE 66, p. 6]. It is undisputed that the Charge of
Discrimination signed by Plaintiff and investigated by the EEOC set forth only a charge
for age discrimination under the ADEA. Thus, the Court dismissed Plaintiffs claims for
race and sex discrimination and for retaliation.
2

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 3 of 16

B.

Material Undisputed Facts2

Plaintiff was bom in December 1959 [DE 48,1J1]. She was employed by Defendant
from August 10,2005, until November 13,2015 [DE 48,H 2]. In 2010, she was promoted
to Assistant Director of Assisted Housing and held that position until her employment
ended [DE 48, H 3]. Plaintiffs duties included management responsibilities over Section
8 and Public Housing [DE 45-1, U13]. On November 15,2015, Plaintiff and her supervisor,
the Director of Assisted Housing, Veronica Lopez, were terminated from their respective
positions [DE 45-1, If 14]. Plaintiff was told that the agency was “moving in another
direction” [DE 48,H12]. Both Plaintiff and Lopez were over the age of 55 at the time of
their terminations [DE 48, 1] 13].

During the months leading up to the termination of

Plaintiff and Lopez, Tam English, Defendant’s Executive Director, would stop by their
office, remark that they were “getting older,” and ask who would replace them [DE 48,
H28].
On November 23, 2015, Plaintiff applied for the newly created position of Director
of Housing Choice Voucher Program [DE 54, H 22]; however, she did not receive an
interview, nor was she hired [DE 45-1, U15]. Defendant instead contracted with the Miami
Beach Development Corporation (“MBDC”) to temporarily fill the role of Director of Housing
Choice Voucher Program while it searched for a permanent Director [DE 45-1, U16]. The
MBDC designated Beatriz Cuenca-Barberio as the interim Director, and she remained in
that position until March 2, 2016 [DE 45-1, If 17]. Cuenca-Barberio, however, was never

2 Plaintiff has filed a Local Rule 56.1 Statement of Facts with numerous attachments
[DE 48]. For purposes of this Motion, and in consideration of Plaintiff’s pro se status, the
undersigned has construed the Statement of Facts as Plaintiffs Affidavit, as well as a
Rule 56.1 Statement of Facts.
3

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 4 of 16

an employee of Defendant, Jd. On February 16,2016, Defendant hired Medina Johnson
as its Director of Housing Choice Voucher Program [DE 45-1, H 20]. Johnson was 12
years younger than Plaintiff [DE 48, H 63], although she was over the age of 40 [DE 45-1
H 20]. Johnson held the Director position until March 24, 2017 [DE 48, U 66]. Plaintiff re­
applied for the Director position after Johnson left, but did not receive an interview [DE 48,
IT 23]. On May 9, 2017, Barbara Baer assumed the position as Director [DE 48, U 67].
Baer, who was the second person hired as Director, is four years older than Plaintiff [DE
48, HH67-68].
II.

RELEVANT LAW
A.

Legal Standards for Summary Judgment

Summary judgment is authorized where there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law. Fed. R. Civ. P.
56(a). The moving party bears the initial burden of demonstrating the absence of a
genuine dispute of material fact. Adickes v. S.H. Kress & Co.. 398 U.S. 144,157 (1970).
The nonmoving party may not then simply rest upon mere allegations or denials of the
pleadings but must establish the essential elements of its case on which it will bear the
burden of proof at trial. Celotex Corp. v. Catrett. 477 U.S. 317, 322-23 (1986). The
nonmovant must present more than a scintilla of evidence in support of its position. A
jury must be reasonably able to find for the nonmovant. Anderson v. Liberty Lobby. Inc..
477 U.S. 242, 254 (1986). In deciding a summary judgment motion, the court must view
the facts in the light most favorable to the nonmoving party. Davis v. Williams. 451 F.3d
759,763 (11th Cir. 2006).

4

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 5 of 16

The court’s function at this stage is not to weigh the evidence and determine the
truth but to determine whether there is a genuine issue for trial. Anderson v. Liberty
Lobby. Inc.. 477 U.S. 242, 249 (1986). “The substantive law identifies what facts are
material to a claim, and only disputes over facts that might affect the outcome of the suit
will preclude the entry of summary judgment.” Suarez v. School Bd. of Hillsborough Ctv..
638 Fed. Appx. 897,899 (11th Cir. 2016). The non-moving party must establish, “through
the record presented to the court, that it is able to prove evidence sufficient for a jury to
return a verdict in its favor.” Cohen v. Am. Bank of Cent. Fla.. 83 F.3d 1347,1349 (11th
Cir. 1996).
B.

TheADEA

Under the ADEA, it is “unlawful for an employer to fail or refuse to hire or to
discharge any individual or otherwise discriminate against any individual with respect to
[her] compensation, terms, conditions, or privileges of employment, because of such
individual’s age.” 29 U.S.C. § 623(a)(1); Chapman v. A1 Transport. 229 F.3d 1012,1024
(11th Cir. 2000) (en banc). For liability to exist under the ADEA, “the plaintiff’s age must
have actually played a role in the employer’s decisionmaking process and had a
determinative influence on the outcome.” JcL (quoting Reeves v. Sanderson Plumbing
Products. Inc.. 120 S. Ct. 2097, 2105 (2000)). “A plaintiff may establish a claim of illegal
age discrimination through either direct evidence or circumstantial evidence.”

Van

Voorhis v. Hillsborough County Bd. of Countv Comm’rs. 512 F.3d 1296,1300 (11th Cir.
2008).

5

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 6 of 16

1.

Direct Evidence of Discrimination

“Direct evidence of discrimination would be evidence which, if believed, would
prove the existence of a fact without inference or presumption." Carter v. City of Miami
870 F.2d 578, 581 (11th Cir. 1989). “[Njot every comment concerning a person’s age
presents direct evidence of discrimination.” ]d; Young v. General Foods Corp.. 840 F.2d
825,828 (11th Cir. 1988). “Only the most blatant remarks, whose intent could be nothing
other than to discriminate on the basis of age, constitute direct evidence of
discrimination.” Van Voorhis. 512 F.3d at 1300 (original quotation marks omitted). For
example, a supervisor’s statements that he “didn’t want to hire any old pilots” and was not
going to interview applicants because “he didn't want to hire an old pilot” were held to be
direct evidence of age discrimination. Id. By contrast, a decisionmaker’s comments that
“the company needed . . . young men ... to be promoted” did not constitute direct
evidence of age discrimination. See Damon v. Fleming Supermarkets of Florida. Inc..

196 F.3d 1354,1359 (11th Cir. 1999).
2.

Circumstantial Evidence of Discrimination

The Eleventh Circuit uses the framework established in McDonnell Douglas Corp.
v. Green. 93 S. Ct. 1817 (1973), “to evaluate ADEA claims that are based upon
circumstantial evidence of discrimination.” Chapman. 229 F.3d at 1024. Under that
method, “a plaintiff must first establish a prima facie case of discrimination.” Id. (citations
omitted).

To establish a prima facie case for an ADEA violation, a plaintiff must show

that she “(1) was a member of a protected age group, (2) was subjected to adverse
employment action, (3) was qualified to do the job, and (4) was replaced by or otherwise
lost a position to a younger individual.” Id (citing Benson v. Tocco. Inc.. 113 F.3d 1203,

6

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 7 of 16

1207-08 (11th Cir. 1997)). These criteria are altered slightly in both a reduction-in-force
(“RiF”) case and where a position is eliminated in its entirety,” as occurred in this case.
Jameson v. Arrow Co.. 75 F.3d 1528,1531 (11th Cir. 1996) (emphasis added). Where,
as here, a claimant’s job was eliminated in its entirety,
the plaintiff establishes a prima facie case by demonstrating
(1) that she was in a protected age group and was adversely
affected by an employment decision, (2) that she was
qualified for her current position or to assume another position
at the time of discharge, and (3) evidence by which a fact
finder could reasonably conclude that the employer intended
to discriminate on the basis of age in reaching that decision.
Id. at 1531-32. Because Hicks’ job was eliminated following her termination, the proper
analytical framework here is the modified one employed in Jameson.
If a plaintiff establishes a prima facie case of discrimination, a presumption of
discrimination arises and “the defendant employer must articulate a legitimate,
nondiscriminatory reason for the challenged employment action.” Chapman. 229 F.3d at
1024. That “burden is merely one of production; it need not persuade the court that it was
actually motivated by the proffered reasons. It is sufficient if the defendant’s evidence
raises a genuine issue of fact as to whether it discriminated against the plaintiff.” Jd.
(internal citations omitted).
“If the defendant articulates one or more such reasons, the presumption of
discrimination is eliminated” and the plaintiff must come forward with evidence to support
a finding that the defendant’s articulated reasons were pretextual. jdL “If the plaintiff does
not proffer sufficient evidence to create a genuine issue of material fact regarding whether
each of the defendant employer’s articulated reasons is pretextual, the employer is
entitled to summary judgment on the plaintiffs claim.” jd at 1025.

7

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 8 of 16

“In an employment discrimination case, the plaintiff must produce sufficient
evidence to support an inference that the defendant employer based its employment
decision on an illegal criterion." Jameson. 75 F.3d at 1531. “At the summary judgment
stage, [the] inquiry is whether an ordinary person could reasonably infer discrimination if
the facts presented remain unrebutted.”

JdL

“The focus of the inquiry [is] not a

determination of whether [Plaintiff] was in fact performing [her] job adequately, but rather,
whether there was sufficient evidence of unsatisfactory performance to be a legitimate
concern of [Defendant and] whether this was the real reason for the termination and not
a pretext for age discrimination.” Young v. General Foods Coro.. 840 F.2d 825,829 n. 3
(11th Cir. 1988) (quoting Halsell v. Kimberly-Clark Coro.. 683 F.2d 285, 292 (8th Cir.
1982), cert, denied. 459 U.S. 1205 (1983) (internal citations omitted)).

“Because the

plaintiff bears the burden of establishing pretext, [s]he must present ‘significantly
probative’ evidence on the issue to avoid summary judgment.” jcL at 829.
III.

DISCUSSION
A.

Direct Evidence of Discrimination

Plaintiff has not established direct evidence of age discrimination. As noted, supra.
“[o]nly the most blatant remarks, whose intent could be nothing other than to discriminate
on the basis of age, constitute direct evidence of discrimination.” Van Voorhis. 512 F.3d
at 1300 (original quotation marks omitted). Not only has Defendant denied the remarks
that Plaintiff attributes to the Executive Director, but the nature of the alleged remarks do
not rise to the requisite level to establish direct evidence of discrimination. Plaintiff asserts
that Tam English made statements to her and Lopez that they were “getting older” and
asked who would replace them [DE 48, ^ 28]. Defendant explains that these statements

8

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 9 of 16

were made to ensure that all appropriate staff were being trained sufficiently in advance
to become future managers [DE 53,

28-30]. Given the Eleventh Circuit’s contrasting

views of the comments in Van Voorhis. 512 F.3d at 1300 - that the decisionmaker had
no interest in hiring older pilots (held to be direct evidence of discrimination) - with the
comments in Damon. 196 F.3d at 1359 - that the company needed young men to be
promoted (held not to be direct evidence of discrimination) - the undersigned concludes
that the comments allegedly made by English do not constitute direct evidence of
discriminatory intent.
B.

Circumstantial Evidence of Discrimination

On the date of her termination, Plaintiff was 55 years old, had been performing her
job for many years, and was qualified for the position. Within days following her
termination, Plaintiff applied for the re-defined and renamed Director position held by her
former supervisor, but she was not hired. Defendant ultimately hired a woman (Medina
Johnson) who was over the age of 40, yet 12 years younger than Plaintiff. Through these
facts, Plaintiff establishes a prima facie case under the modified framework set forth in
Jameson. 75 F.3d at 1531.3 See Carter. 870 F.2d at 583 (a plaintiff need not show she
was replaced by somebody under the age of 40, only that she was replaced by a younger

3 Although this is not a reduction-in-force (“RIF”) case, Plaintiffs job was eliminated after
her termination. She therefore establishes a prima facie case by demonstrating, among
other things, that she was qualified “to assume another position at the time of discharge”
and that the employer hired a younger person for that other position. Jameson. 75 F.3d
at 1531,1533 (“An employer’s decision to transfer or to hire a younger employee for that
available position is sufficient evidence to support an inference of discrimination for the
”)
limited purpose of establishing the plaintiff’s prima facie case.
9

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 10 of 16

person).4 “Presentation of a prima facie case by a plaintiff raises a rebuttable presumption
of discrimination. . . .” Id. at 584.
The burden then shifts to Defendant to "articulate a legitimate, nondiscriminatory
reason” for the termination and failure to re-hire Plaintiff, jd According to Defendant,
Plaintiff was terminated because her oppressive management style led to high rates of
turnover that reached nearly 75% the year she was terminated and caused staffing
problems for Defendant [DE 45-1]. Defendant has submitted the affidavit of its Executive
Director, Tam English, as well as copies of exit interviews from 4 employees who
complained about the way they had been treated by Plaintiff [DE 45-1B]. Defendant has
also submitted years of performance reviews of Plaintiff, which Defendant claims
“contained negative comments about her communication with and leadership of
employees. These negative comments consistently appeared on Plaintiff's performance
reviews throughout her employment.”

[DE 45-1, ^ 12].

Defendant submits that it

terminated “both Plaintiff and her supervisor for the legitimate, non-discriminatory purpose
of reducing employee turnover, improving employee morale, and facilitating a stable
workforce.” [DE 44, p. 13]. The undersigned concludes that “[h]ere, the proffered reason
clearly meets the test of being one that might motivate a reasonable employer.”
Chapman. 229 F.3d at 1031. High employee turnover harms employers, jd., and it is
entirely reasonable for an employer to take action to remedy such a trend. Given that the

4 Plaintiff repeatedly refers to Medina Johnson's replacement, Barbara Baer, who was
hired as the Director of Housing Choice Program in May 2017. Baer is four years older
than Plaintiff and, therefore, her hiring cannot support Plaintiff's prima facie case for age
discrimination, or constitute evidence of discriminatory intent. Thus, Baer's hiring (two
years after Plaintiffs termination) provides no support to Plaintiff's claims.

10

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 11 of 16

employer’s burden at this stage is merely one of production, jd at 1028, Defendant has
proffered a legitimate, non-discriminatory reason for Plaintiffs termination.
As Defendant has met its burden, Plaintiff must “come forward with evidence,
including the previously produced evidence establishing the prima facie case, sufficient
to permit a reasonable factfinder to conclude that the reasons given by the employer were
not the real reasons for the adverse employment decision.’’ jd. at 1024 (citations omitted).
“Provided that the proffered reason is one that might motivate a reasonable employer, an
employee must meet that reason head on and rebut it, and the employee cannot succeed
by simply quarreling with the wisdom of that reason.” jd at 1030 (citing Alexander v.
Fulton Countv. Ga.. 207 F.3d 1303, 1341 (11th Cir. 2000) (Title VII case)). The Court
cannot examine the wisdom of Defendant’s decision; the “inquiry is limited to whether the
employer gave an honest explanation of its behavior.”

Id (quoting Elrod v. Sears.

Roebuck & Co.. 939 F.2d 1466, 1470 (11th Cir. 1991) (internal citations omitted)).
Because the burden is on Plaintiff to establish pretext by Defendant, she “must present
‘significantly probative’ evidence on the issue to avoid summary judgment." Carter. 870
F.2d at 586 (quoting Young. 840 F.2d at 829 (internal citations omitted)).
Plaintiff has submitted a Statement of Facts [DE 54] in opposition to Defendant’s
proffer and has also submitted her own Statement of Facts [DE 48], along with numerous
documents in support of her position [DE 43-1, 43-2, and 43-3], which the undersigned
has reviewed in detail. Plaintiff argues that of the 60 employees who left HACFL between
January 2007 and November 2015, approximately 58% held the Occupancy Specialist
position [DE 48,

44],

In the year of Plaintiffs termination, 8 out of 14 employees

(approximately 57%) who left HACFL were Occupancy Specialists [DE 48, U 47].

11

:j
i

(9bbiox*ujs;ejA 3.^} Mpo (©y HVCkr M©i© occnbaucA gbscrap^ JdE ^8' & ^iT -

'

bosiyou fDE i*8‘ 4 up*]* f« tM®- Aest 04 bi??ui!&e tstai]W9{!QU’ g -ortf. 04 4* ewbjoAeee
4

•

*

IsimsiA sOOi 9**} J40A<sujpsi 504£* abbiomuSfejA $g^». ysjq jus -occftbsucft gbscisjiaf
T

yss ieArGmsq to qeisty bfswmt stSnsa |p3f 04 fpe go ©tub{0,\s©3 Myo jey hV Cfcf ps4AA9©u
•- qbenujsiUR iu snbbcii 04 yet bpsgjou’ (pg <$3-4 ‘ <43 5* sup ^3-3}' wyicy-lye.,nuqetstdueq
■

•■«

-

bi 04461 suq p93 5J20 anpuiftfBq ysi cmu gjst&iuoyi 04

>

fDE ^8}‘ 3|Qu9 AW uittusions

b!9‘WI.H P# gnpujiysq s gfajeuieui 04 fescjs [DE 8^1 obboeipou 40 psieuqs 114.3
‘f

.

',.

*

fc‘5q S4.S89 (dnopuB Aonutf* 8^0 fc'5'q 94 359 (iUiGUjSf'CfjS4;ou3 ouj^q)). ^ufycauff?. btopsiFA© ©wqGusG ou iy6.ie?nG 40 SAOiq enu«ii9tA)qqaiL®t4 , cW^'8A0
* gGcgpse ftj© pfffqsu i» ou b|9|W4?|i I© G3fsp|fsp bt€4SX4 pA D61©bqsu4‘ sy© „iun34 bisgeof
"

*•

'

WeffivfTW' 01a
GtobjoAsi 8sa6

su

\

mb uw.cv 4304) (lUietusj epgaue oiaijpq})--

youssi Gxb|su9|«3u 04 {43 peysAior, joy (dnopua SI^CAT^sgtF

csuuof exsuiiue IP© Mtsqoui 04 p^euqsui s qsPiaiou: jys „nidutiA tf ipxiff&q |o MydnjGyys

1'

ytjlbb gomWe^' m k’M 4302* 43^1 ^’IP CW 5000) (im AH C3-J©))- j.ys c<*«#
,

■,

>*_

pA atiiibjA dnsLLGfiua Msjy |ys ambqouj 04 [pst t©330U\. |q"

/ .

A'

'n

suibfoA©© urns* ujssi (ys| iss?©}.* yssq ou suq isprq 14' suq cys gijjcioAs© csuuoi'snccssq
„btOA!qeq 44434 ip© bioyeteq issaou 43 ou© ipsj ujjSpf4104^946 a issBOugpj© ©uibibAGt' su
U04 jye tesj tssaoua401 pi© sqAGtsssiubioAiusu* qecsBjau', jqf s| 4$$$ (014341003 ompeq)1

.

40 bpLUilJ 9 16330U9PI0 (SCyjsJGeiiO COUOfOq© ipsi 4pG l©9BQUB'd?A6U pA 4P© eiubjoAei mol©
iUC«oqju8'iys bLGAionsiA btoqncsq SAiqsue© ©gfspiiayjuO cy$ BuGBlso!© csa©* arpictei-i
V* D®4®uqguj ys3 u>©4 !t© pnuj©u!

lunsr ,,00:3© iouv^Lq Mijy ©Arqeucs

OLd44©t©q 9 i©9i4iuis4©'uou-qiacuuJiusioiA 16930U 404 bi^Synits l®^!W3|tou
e«,ub|oA©t,2 pmqsu si lyse spa© \2 UJSiSjA ou© 04 bioqncf!OU‘ IqT 34 4058* D©4©uqsu4 pss

i
1 !
*■

r

r■

? *ij

.

.

c*’.. 1 ;

tr

^v

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 12 of 16

According to Plaintiff, those employees were directly supervised by two Occupancy
Specialist Supervisors [DE 48, U 45], Thus, Plaintiff argues that she was not responsible
for HACFL’s high rate of turnover [DE 47, p. 14], and that Defendant’s proffered reasons
were pretextual. Plaintiff’s evidence, however, belies her argument.
Plaintiff has submitted with her Statement of Facts an organizational chart of her
department [DE 48-3, p. 56] as well as a list of department employees who were
terminated or resigned, sorted by year [DE 48-3, pp. 52-54]. This evidence shows that
14 department employees separated from HACFL between January and November 2015,
7 in 2014, 9 in 2013, and 12 in 2012. This same organizational chart shows that Lopez
and Plaintiff were at the top of the department [DE 48-3, p. 56], and it shows that the
Occupancy Specialists were in Plaintiff’s chain of command. The Occupancy Specialists
who left their positions were therefore subordinates of Plaintiff and her supervisor.
The affidavit of Tam English stated that the workforce instability in the department
created staffing problems for HACFL [DE 45-1,

14]. English submitted copies of exit

interviews from 4 employees who raised complaints about working under Plaintiff’s
supervision [DE 45-1, pp. 10-17]. According to English, Plaintiff’s harsh and oppressive
management style contributed to the high staff turnover. English cites random excerpts
from Plaintiff’s employee reviews that suggest improvements to her communication skills:
The 2009 performance review noted that Plaintiff “may become
frustrated in the low performance of employees” which results in
her “delivering criticism that may be tinged with an opinion on the
reason for the employee’s failure to perform.” The performance
review suggested management training so that Plaintiff can
improve how she delivers criticism [DE 45]. The 2010 performance
review noted that Plaintiff “needs to learn to monitor her body
language to avoid transmitting the wrong message” and that “she
should strive to maintain control of all areas of communication.”
The 2011 performance review noted, that when working with

12

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 13 of 16

subordinates, Plaintiff must “strive to assure when asking open
ended questions she waits until the full response is obtained prior
to questioning further and then giving guidance not attempting to
show her frustration through body language.” A second review in
2011 noted that Plaintiff must improve her delivery of criticism. In
2012, the review noted that Plaintiff would “benefit from training in
Conflict Resolution and should seek the opportunity to participate
in such training to assist her in mediating issues arising between
A similar
employee and/or with her own subordinates,
recommendation was made in 2014.
These are the entirety of negative comments contained in Plaintiff’s performance reviews.
Plaintiff counters that her performance reviews never addressed her management
style, employee turnover rates, or overbearing demeanor [DE 45-1, pp. 10-17]. And
Defendant admits that Plaintiffs employee reviews were “mostly positive.”

Indeed,

Plaintiff asserts in her Statement of Facts [DE 48] that her performance reviews noted
that she “quickly assumes a strong leadership role when action [was] needed”; that “her
outlook was generally positive”; that she “[made] every effort to make herself accessible
to her subordinates”; that she displayed very good verbal skills, communicating clearly
and concisely”; and that she “listens and comprehends well.” [DE 48, ffl] 36-37].
In her Reply to Defendant’s Statement of Facts [DE 54], Plaintiff notes the following
positive comments about her leadership and communication skills:
From 2005: “very good verbal skills, communicating clearly and
concisely”; “tolerates a great deal of pressure and she quickly
assumes a strong leadership role when action is needed”; From
2007: “keeps others adequately informed and she selects appropriate
methods of communication”; From 2013: “When replying to requests
for guidance, Carolyn always takes a proactive approach and makes
reference to regulations and/or policies and procedures which are
applicable to the circumstances so contributing to the training of
employees”; “Carolyn’s delegation on her employees has improved,
we do work in a very closed environment and it is at times hard not to
‘jump in’ and do it ourselves for the sake of expediency, but she has
placed more emphasis on monitoring”; From 2014: “Carolyn is
extremely thorough and proactive about keeping others well
13

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 14 of 16

informed”; “She exhibits an appropriate level of confidence in herself
as well as others and she reacts well in pressure situations.” [DE 54,
1112].
Plaintiff therefore argues that Defendant’s concerns about her management style
were never addressed with her and are contradicted by the positive performance reviews.
Plaintiff further argues that Defendant has never distinguished between employees who
left their employment voluntarily and employees who were terminated involuntarily.
Plaintiff argues, therefore, that Defendant cannot properly attribute the turnover rate to
her management style.

Finally, Plaintiff argues that the four negative employee exit

interviews proffered by Defendant [DE45-1B] constitute a small fraction of terminated
employees and, therefore, are insufficient to establish that her management style
contributed to or caused the alleged high employee turnover. She reasons, therefore,
that Defendant’s proffered reasons for her termination are merely pretextual.
After carefully reviewing the evidence, and granting Plaintiffs Statement of Facts
wide evidentiary leeway, the undersigned concludes that Plaintiff has failed to establish
that the reasons given by Defendant for her termination were not the real reasons - stated
differently, that the reasons given were merely pretextual. The undersigned notes that it
is not for the court to second-guess the wisdom of an employer’s decision, provided the
decision is not motivated by improper reasons. Chapman. 229 F.3d at 1030; see also
Nix v. WLCY Radio/Rahall Comm’s. 738 F.2d 1181,1187 (11th Cir. 1984) (An “employer
may fire an employee for a good reason, a bad reason, a reason based on erroneous
facts, or for no reason at all, as long as its action is not for a discriminatory reason.”).
Here the evidence plainly shows that Defendant was genuinely concerned about
the rate of turnover among Plaintiff’s own subordinates and the resulting staffing problems

14

«

Ips ls{« 04 ^niuoASL sjpopQ

o/au snpotqfuaiss quq ppe isanjifpS ©isgiua bLOjijeuia

H*sie |pe sAjqeuce bjsiejA apo/wa fpsi cs(suqsui /wars aeunwejA coucstusq pponi
(SCJS* OL (Ol UO IS380U 9| Sjf 98 {OPO 92 jfS 9C|!0U !2 POf pi 3 qtaeUUflUSJOlA C&980U',,)'
tm,\ 4(16 3u eiiibioAGS (oi 3 Qooq

isssop*

9 psq tesaop' 3 i.easou psseq ou spousona

Hlx A' MrcA B'9qio\Bs¥9sTcoii)»ir8 x28 hxm im* 4 m iu ip ox
qec|g|OU 18 UQf UJ04!A3|3q pA JiPfotObsl IQ88QU8

(vu pswbioAsi

134- 9f J030-

stao

f. uof (ot |ps conti |o Kccouq-tinsee'ipe Avaqoiu 04 su eujbioAei.s qecjstop' btOAtqsq fps.
r •

qiUstsuuA1 ip9| (ps L6SSOP2 0!Asp Msts tueisjA bteiexinsf ipe fluqsLSiaueq poise ipsi ?|
,

(pal |pe 16380U3 OfAsu pA D&qouqaui 401 pet fsiiutuspoD msis up| fpe issj tesaoua - sjgfeq
Mjqs SAiqsupgiA issmsA1 ipe nuqstaiaueqcopcfnqss ius;

psa 49i;sq |0 esiapiisp

%pi C9iS4n;iA tsAJS/^09 ipe ©Ajqsp&Y guq Qtspqpd btswflita gisisipsuf 04 fesqs
Ipsi Dsssu<?s^a bto(4Sieq !S3£0b2 401 pst f€UPiU£||Ou ste uiStSfA bisfsxinsc
couiupnisq p ot csnseq jps 9jj€>3sq p|8p stPbjoAes intuoASt* ape loaaops* fpcieiois'
etubioAssa apq* ipcteioie* sts juarqyeisui 10 eaispysp ip3{ pei; pjgusaeujsui siAje
fyietAJSMg bioueisq pA 0S(suq9P| [[)£ sfp-iel couspmi© s 3UJS|i (iscisoo 04 ismjitrajeq
pet ujgugQGUjeui a|A}©-

fctu3?f/V biswui atQns? jpgf fps (ora

usSshas

siubfcAss ex;;

bssuipu sidffS2‘ ipeieiote* ipsf osteuqsPi csppot btobeqX gfiupru© jp© intuOASt tsi© p
!

jsy ipsa etubioAtusui AOjnujaujA suq smbfoAees A^po ft\©te leuptusisq ^uA0|^ut3UjA•
b!3|U|}u (f»4pst aiQrtea ipsi D®t©oqsu| pas pgasi qtafiudfisspsq psimesg saibjoAssa Mpo
mis ogasi sqqteaaGq Map uet suq aw coupsq.cieq pA {ps boarfjAS fc©*40uusuc© tSAiGMs
bistsjpu ipstSiOLS 9tane8 |ps| DSjjeuqso^s coucetus gponi pet Lususaeiosui afAfs
«!i 45l'
as MSfi 3s otpsis suq ape tesejs A'.ejj ip btessnt© aimapcps ,. fog at'
tuiottueq,,: ape sxpipp su gbbtcbuaie jeAsj 04 oouijq&ucs tw petacij.

V ^

' Z- '

t

'

‘

*

t*-

l

*

.

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 15 of 16

in Plaintiffs department.

That evidence stands unrebutted.

Plaintiffs performance

reviews do not diminish the genuineness of Defendant’s concern for an alarmingly high
turnover rate, which reached 75% in Plaintiffs department the year she was terminated.
As the Eleventh Circuit noted in Young, the focus on the court’s inquiry is not on whether
the plaintiff was performing her job adequately, but whether there was sufficient evidence
of unsatisfactory performance “to be a legitimate concern of the defendant and whether
this was the real reason for the termination and not a pretext for age discrimination.” 840
F.2d at 829 n.3 (citation omitted). Here, Defendant’s proffered reasons for Plaintiffs
termination - reducing employee turnover, improving employee morale, and facilitating a
stable workforce - were plainly legitimate employer concerns. And Plaintiff has not
proffered any evidence that would call into question the genuineness of Defendant’s
concerns for the turnover, morale, and workforce stability in Plaintiffs department.
Furthermore, aside from the fact that one of the individuals (Medina Johnson) Defendant
hired to the Director’s position was over 40, yet 12 years younger than Plaintiff, the record
is devoid of evidence - direct or circumstantial - that would suggest that any decisionmaker responsible for Plaintiffs termination was at all motivated by considerations of age.
Significantly, although Plaintiff makes repeated references to the hiring of Barbara Baer
to the Director’s position two year’s following Plaintiffs termination, such references do
not even permit an inference of discrimination as Baer is four years older than Plaintiff.
In sum, the undersigned concludes that Plaintiff has failed to produce the
significantly probative evidence that is required to rebut Defendant’s legitimate,
nondiscriminatory reasons for her termination and avoid summary judgment. Young. 840
F.2d at 829.

15

48

fe 5m si 856'
uouqj'jafrjuiiiaptA tesreo its pi p?i isuijtusttmj suq saoiq gnuu«siX InqQuisur ^gnSSf g<40
. SiauiycsufiA btopspA© ©Aiqsuce jp©| ?2 tednrfceq p LSpsif Qspuqsuj & FB0ijjUi3P‘
iu eriw’ jp© nuqsi2i8ueq coucinqss fpsx b!3?^ M3® *spq p btoqrtce (p©
uof SApu bGLMifi gu lutbisuc© o4qi2cutyn/s|ioiJ 32 gseue joni X©3L8 ojqei psu b^fRf
p ps o;ivsqot,2 bosipou pvio Asst,2 puo/AtuG yspiRfc,® |6ttu?us"a0' snep isptsucss.qo
gtaujiicsqiA* ajiponbp bl9*u4fU w&p&s tsbsspq tcp-ieuc©* p ip© pii.?u8 04 Baipras gset
UJSK©L L62bOU?Ipl© pi bPitqUl® pUiJlUt.tlQU M33 9| S|j U}0|tAS|6q pA C0U2P[GiSf{0U2 04 38s ••
© qeAOtq ©4 ©Atqsuc© - quecpot ciLcnujepupSi ~ ipsj Momq sr&dezi ipaj suA qsepioupueq p ip© Oi^oq® bo&SfOu ms?2 oa*sl <jo' A©| is Asst? AonuGet ipqp bppiiiV P® t-scoiq
j-nipeujjoi©* 32iq3 41010 jp© tsq psi ay© 04 ip© pqtwqnsj© tfieqms qoposow) D©4©uqsu|
couceius |ol ps (muoASf uiotsjs* auq

molkiolc©

eppinpV (u bl3PJ?ll® qsbsqujeuf

biousisq guA ©Aiqeucs ips* Monjq csji Pp dnesipu fps Ssuniueuess 04 D©4©uq0U|,2
Sfspf© MOiKPiC© ~ MSI 3 b}Sii.nA }6%}UJ3|e ©LUhjCAst G0UCGIU8

yuq bi3!<4M P33 UOI

ptuiiUBfiau - t©qnciU3 ©tubpAsg ptuciA©t‘ ju/oioAiua stubpA©© wotsp' auq pei^puQ ©
k'5q si 858 3'3 (cjfspou QDjjffGq*

ppt-®*btoysteq issgous pi

Ip 12 M92 |pS 169} L6S30U pL fp© {©UJjIUSpOU, 9!.<q L’GJ 3 bt6|6X| pt 38© qiSGUtUlUSpOU', 8*Q
04 nussfigiscioiA beqotttJS»o© :lp ps 9 isQipUiSf© coucstu ol |p© qeieuqguj suq Mpsipsi
IP© b|9tufj4|MS3 bstpujjiud pGi ]op sqednepejA* pni Avpeipei fpei© mss sn&icisuf eApsucs
V® IP© 0©A9U(p .CjLcmi uopq iu Aomia |p© 4001? ou p© conq,3 ludniiA m uoi ou /’.pepsi
(ntuoAst isfG' AApicp leaepeq \20\? ;u bPPPU,® qebgqujsui fp© A©3i sp© M3© (©LLUtuSieq
tsAi6A’2 qo uoi qjpjurap |p© a©Ufijpso©©3 04 Q©4©uq9Ufl© couc©iu pL su sistpiuStA pi8p
iu bi^'Ul.tp.2 qsbsqui^Ji1

V

.

j.p3f ©Aiqeuc© sfsuqg nutr,pn;{©q-

fc •*

b!3!i(4Hl,® csuotiusucv

4 t

Case 0:18-cv-61662-FAM Document 70 Entered on FLSD Docket 05/06/2019 Page 16 of 16

IV.

CONCLUSION
For the foregoing reasons, the undersigned respectfully RECOMMENDS that

Plaintiffs Motion for Partial Summary Judgment [DE 47] be DENIED and that Defendant’s
Motion for Summary Judgment [DE 44] be GRANTED.
The parties will have fourteen (14) days from the date of being served with a copy
of this Report and Recommendation within which to file written objections, if any, with the
Honorable Federico A. Moreno, United States District Judge. Failure to file objections
timely shall bar the parties from a de novo determination by the District Judge of an issue
covered in the Report and shall bar the parties from attacking on appeal unobjected-to
factual and legal conclusions contained in this Report except upon grounds of plain error
if necessary in the interest of justice. See 28 U.S.C. § 636(b)(1); Thomas v. Arn. 474 U.S.
140,149 (1985); Henley v. Johnson. 885 F.2d 790, 794 (1989); 11th Cir. R. 3-1 (2016).
DONE AND SUBMITTED in Chambers, Fort Lauderdale, Florida, this 6th day of
May 2019.

<T
BARRY S. SELTZER
Magistrate Judg
Unitei
Copies furnished via CM/ECF to:
Hon. Federico A. Moreno
Counsel of record and unrepresented parties

16

Appendix E

Case 0:18-cv-61662-FAM Document 46 Entered on FLSD Docket 02/26/2019 Page 1 of 2

UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
Fort Lauderdale Division
Case Number: 18-61662-CIV-MORENO
CAROLYN HICKS-WASHINGTON,
Plaintiff,
vs.

THE HOUSING AUTHORITY OF THE CITY
OF FORT LAUDERDALE, and TAM
ENGLISH,
Defendants.
ORDER ADOPTING MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
THE MATTER was referred to the Honorable Barry S. Seltzer, United States Magistrate
Judge, for a Report and Recommendation on The Housing Authority of the City of Fort
Lauderdale's Motion to Dismiss Counts I, II, III, IV, VII, and VIII and Motion to Strike
Paragraphs 10-15, 17-38, 45, 64-65, 67-68,75-77, 80-113, 120-124, 155-156, 158,
161-162, 183-186 and 294(J) of the Amended Complaint, filed on October 3. 2018. The
Magistrate Judge filed a Report and Recommendation (D.E. 34) on February 1. 2019. The
Court has reviewed the entire file and record. The Court also notes that no Objections to the
Report and Recommendation were filed.1 It is,
ADJUDGED that United States Magistrate Judge Barry S. Seltzer’s Report and
Recommendation is AFFIRMED and ADOPTED. Accordingly, it is
ADJUDGED that The Housing Authority of the City of Fort Lauderdale's Motion to
Dismiss Counts I, II, III, IV, VII, and VIII and Motion to Strike Paragraphs 10-15,17-38,45,641 This Court also notes that Plaintiff filed a Motion to Stay Discovery; Disqualify Magistrate Judge Seltzer; and
Vacate his three most recent decisions (D.E. 37) and a Motion to Amend Motion to Stay Discovery, Disqualify
Magistrate Judge Seltzer, and Vacate his three most recent decisions (D.E. 38), which were both denied.

Case 0:18-cv-61662-FAM Document 46 Entered on FLSD Docket 02/26/2019 Page 2 of 2

65, 67-68, 75-77, 80-113, 120-124, 155-156, 158, 161-162, 183-186 and 294(J) of the Amended
Complaint is GRANTED. For the reasons set forth in the Report and Recommendation,
Plaintiff has again failed to allege any facts that would establish a basis for relief as alleged in
Counts 1, II, III, IV, V, VII and VIII, therefore those Counts are DISMISSED with prejudice. It
is further,
ADJUDGED that paragraphs 10-15, 17-38, 45, 64-65, 67-68, 75-77, 80-113, 120-124,
155-156, 158,161-162,183-186 and 294(J) of the Amended Complaint are STRICKEN.
rs

DONE AND ORDERED in Chambers at Miami, Florida, this ^ S

of February 2019.

FEDERIC
UNITED SJATES DISTRICT JUDGE
Copies furnished to:
United States Magistrate Judge Barry S. Seltzer
Counsel of Record

2

J

Appendix F

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 1 of 11

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-61662-CIV-MORENO/SELTZER
CAROLYN HICKS-WASHINGTON,
Plaintiff,

vs.
THE HOUSING AUTHORITY OF THE
CITY OF FORT LAUDERDALE and
TAM ENGLISH,
Defendants.
REPORT AND RECOMMENDATION
THIS CAUSE is before the Court pursuant to The Housing Authority of the City of
Fort Lauderdale’s Motion to Dismiss Counts I, II, III, IV, V, VII, and VIII and Motion to Strike
[Specified Paragraphs] of the Amended Complaint [DE14]. The District Court entered an
Order of Referral [DE 6] referring all pretrial matters to the undersigned for appropriate
disposition or recommendation pursuant to 28 U.S.C. § 636(b) and the Magistrate Judge
Rules for the United States District Court for the Southern District of Florida. For the
reasons set forth below, the undersigned recommends that the Motion be granted.
I.

BACKGROUND
Plaintiff Carolyn Hicks-Washington (hereinafter “Plaintiff”) was employed by the

Housing Authority of the City of Fort Lauderdale (“Defendant” or “HACFL”) as the Assistant
Director of Assisted Housing from August 10, 2005, November 13, 2015, when her
employment was terminated [DE 12,

42, 59]. Plaintiff was told by her supervisor that

“the company was moving in a ‘different direction.’” No other explanation was provided [DE

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 2 of 11

12, U 62]. At the time of her termination, Plaintiff also learned that the Director of Assisted
Housing was being terminated as well. [DE 12,1] 60]. On November 23, 2015, Plaintiff
applied for the position of Director of Housing Choice Voucher Program [DE 12,1J179].
Plaintiff was not hired for the position although a black female over the age of 40 was hired
[DE 12, U 182].
On April 16, 2016, Plaintiff submitted an intake questionnaire to the Equal
Employment Commission (“EEOC”) in which she alleged individual disparate treatment in
her employment based on her race, color, national origin, sex, and age [DE 12, ^ 79]. Yet,
the Charge of Discrimination form that Plaintiff ultimately signed, verified, and submitted
to the EEOC alleged only that she was terminated from her position and not hired as a
director because of discrimination based upon age [DE 12, U 80]. The Charge of
Discrimination does not allege discrimination based upon race, color, or sex; nor does it
allege that Plaintiff was retaliated against for participating in protected activities [DE 14-1].
After an investigation into Plaintiffs claims, Defendant reported to the EEOC that Plaintiff
had been terminated (and not re-hired for a different position) due to a pattern of high
employee turnover attributable to Plaintiffs management style. The EEOC issued a Right
to Sue letter authorizing Plaintiff to raise her age discrimination claims in court.
On August 24,2018, Plaintiffs original Complaint [DE 1] was dismissed with leave
to amend [DE 10]. On September 18, 2018, Plaintiff filed her Amended Complaint [DE
12]. Defendant filed an Answer and Affirmative Defenses [DE 15] to Count VI of the
Amended Complaint (based upon the Age Discrimination in Employment Act), and it
moved to dismiss the remaining counts [DE 14]. Defendant also moved to strike numerous
paragraphs from the Amended Complaint as immaterial and/or impertinent. Plaintiff has
2

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 3 of 11

filed a memorandum in opposition [DE 19] and Defendant has filed a reply memorandum
[DE 24]. The matter is now ripe for decision.
II.

DISCUSSION
A.

Motion to Dismiss

Defendant moves to dismiss Count I - Disparate Impact in Violation of Title VII;
Count II - Individual Disparate Treatment in Violation of Title VII; Count III - Retaliation in
Violation of Title VII; Count VII - Retaliation in Violation of the ADEA; and Count VIII Discrimination in Violation of the Florida Civil Rights Act of 1992, of Plaintiffs Amended
Complaint for failure to exhaust administrative remedies. Counts I, II, III, and VIII allege
discrimination based upon sex, color, and race. Counts IV and VII allege retaliation in
violation of Title VII and Section 1981.
“To survive a motion to dismiss, a complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal.
556 U.S. 662,678 (2009) (quoting Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 570 (2007)).
Although this pleading standard “does not require ‘detailed factual allegations,'... it
demands more than an unadorned, the defendant-unlawfully-harmed-me accusation.” Id,
(alteration added) (quoting Twomblv. 550 U.S. at 555). Pleadings must contain “more than
labels and conclusions, and a formulaic recitation of the elements of a cause of action will
not do.” Twomblv. 550 U.S. at 555 (citation omitted). Indeed, “only a complaint that states
a plausible claim for relief survives a motion to dismiss.” Iqbal, 556 U.S. at 679 (citing
Twomblv. 550 U.S. at 556). To meet this “plausibility standard,” a plaintiff must “plead[ ]
factual content that allows the court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” ]d. at 678 (citing Twomblv. 550 U.S. at 556).
3

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 4 of 11

When reviewing a motion to dismiss, a court must construe the complaint in the light
most favorable to the plaintiff and take the factual allegations therein as true. See Brooks
v. Blue Cross & Blue Shield of Fla., Inc., 116 F.3d 1364,1369 (11th Cir. 1997). However,
pleadings that “are no more than conclusions are not entitled to the assumption of truth.
While legal conclusions can provide the framework of a complaint, they must be supported
by factual allegations.” Iqbal, 556 U.S. at 678.
1.

Failure to Exhaust Administrative Remedies

“Before a potential plaintiff may sue for discrimination under Title VII, she must first
exhaust her administrative remedies.” Wilkerson v. Grinnel Corp., 270 F.3d 1314, 1317
(11th Cir. 2001). The first step is filing a timely charge of discrimination with the EEOC.
id.

Charges of discrimination “shall be in writing under oath or affirmation and shall

contain such information and be in such form as the [EEOC] requires.” Id, (quoting 42
U.S.C. § 2000e-5(e)(1)). The EEOC regulations require that a charge be in writing and be
verified. 29 C.F.R. § 1601.9 (2018). “To be verified, a charge must be ‘sworn to or affirmed
before a notary public, designated representative of the Commission, or other person duly
authorized by law to administer oaths and take acknowledgments, or supported by an
unsworn declaration in writing under perjury of law.’” Wilkerson, 270 F.3d at 1317 (quoting
29 C.F.R. § 1601.3(a) (2000)).
“Generally, a ‘plaintiffs judicial complaint is limited by the scope of the EEOC
investigation which can reasonably be expected to grow out of the charge of
discrimination.’” Francois v. Miami-Dade County, 742 F. Supp. 2d 1350,1353 (S.D. Fla.
2010) (quoting Gregory v. Georgia Dep’t of Human Resources. 355 F.3d 1277,1280 (11th
Cir. 2004)). “While the scope of an EEOC charge should be liberally construed, the proper
4

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 5 of 11

inquiry is whether the claims in a judicial complaint are like, related to, or grow out of the
allegations contained in the EEOC charge.” jd.
The Charge of Discrimination submitted by Plaintiff to the EEOC marked the box
labeled “Age” under the section “DISCRIMINATION BASED ON” [DE 14-1]. The factual
recitation set forth the following:
My age (56) years old. I was employed by the above named
employer as an Assistant Director of Assisted Housing, until I
was terminated because of my age by Executive Director, Tam
English, and Chief Financial Officer, Michael Tadros. I believe
the discharge was pretext and discriminatory because Mr.
English on more than one occasion mentioned to my
Supervisor, Veronica Lopez, and I that we were getting older
and who do we have to replace us. We shared that we have
trained several employees who could take over our positions.
This was a pattern of practice of my employer because back
in 2010 we were provided an additional workload, which
included a title change (from Assistant Section 8 Director), that
was previously assigned to Andrea Ayala and Scott
Strawbridge. On 11/13/2015, Mr. English discharged me and
my supervisor. On 11 /16/2015,1 was replaced by Anita Flores
(under 40 years of age) who took on the responsibilities I
previously held. On 11/23/2015, I was subjected to hiring
discrimination after I applied for the Director of Housing Choice
Voucher Program position. I was not given a callback nor
interviewed for the position. I know I was qualified for the
position because I had over 30 years experience in various
housing authorities with over 14 years in the Housing Choice
Voucher program (formerly known as Section 8).
The reason given for my termination had nothing to do with the
recent HUD audit or the status of the files, according to Tam
English. I was told by Tam English that the agency was
moving in a different direction.! believe I was discriminated
against because of my age (55), when I was terminated, and
not hired for the Director of Housing Voucher Program, in
violation of the Age Discrimination in Employment Act of 1967,
(ADEA), as amended.

5

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 6 of 11

[DE14-1, p. 7]. The Charge of Discrimination stated that the earliest date of discrimination
took place on November 13, 2015, and the latest date of discrimination occurred on
November 23, 2015.
The Charge of Discrimination clearly states that Plaintiff’s claims were based upon
age discrimination and nothing else. The Charge contains no information or factual
allegations from which a claim of discrimination based upon sex, race, or color could be
construed to be like, related to, or growing out of the stated charges of age discrimination.
Likewise, nothing alleged in the Charge of Discrimination could support a finding that
Plaintiff raised a charge of retaliation with the EEOC. Plaintiffs claims of discrimination
based upon sex, race, color and retaliation in violation of Title VII are, therefore, barred.
Cf. Thomas v. Miami-Dade Public Health Trust, 369 Fed. Appx. 19, 22 (11th Cir. 2010)
(claims of race and sex discrimination barred for failure to exhaust administrative remedies
where EEOC charge asserted that failure to promote was only a result of retaliation).
Plaintiff argues that she checked boxes on her intake questionnaire raising claims
for race, sex, and color discrimination, but that the EEOC nevertheless only presented a
claim under the ADEA to Defendant. The Eleventh Circuit, however, has held that intake
questionnaires do not satisfy the statutory requirements of an administrative charge under
Title VII. Pijnenburg v. West Georgia Health System, Inc., 255 F.3d 1304 (11th Cir. 2001).
Accordingly, the undersigned concludes that Counts I, II, III, VII, and VIII of Plaintiff’s
Amended Complaint [DE 12] should be dismissed for failure to exhaust administrative
remedies.

6

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 7 of 11

2.

Failure to State a Claim for Disparate Treatment in Violation of § 1983

Count IV of Plaintiffs Amended Complaint alleges that Defendant discriminated
against her on the basis of race and/or color in violation of 42 U.S.C. § 1981 by denying
her the same terms and conditions of employment available to employees who are
classified as white. Defendant moves to dismiss Count IV on the ground that Plaintiff has
failed to allege any facts or attach any documents to her Amended Complaint that would,
if proven, establish discriminatory intent.
The undersigned agrees that Plaintiffs Amended Complaint raises nothing more
than conclusory and speculative allegations concerning racial animus on the part of
Defendant [DE12, If 155-162]. Paragraph 155 states: “Based on America’s longstanding
and on-going history of both blatant and subtle white racism, as well as sexism, no
presumption can be made that English harbors no explicit and/or implicit biases against
people of color and/or women.” The Amended Complaint goes on to say that Tam English,
Plaintiffs supervisor - “a male classified as ‘white’” - “was bom before the passage of the
Civil Rights Act of 1964, during a time in America when de jure racial segregation existed
in all areas of society” [DE 12, U 156]. The Amended Complaint further alleges that
English’s hiring decisions were “consciously and/or unconsciously ... tainted with racial
bias. [DE 12, If 157]. And the Amended Complaint notes that Tam English is “a proud
supporter of the Republican party” who expressed his “disapproval of Obama and his
administration throughout his eight-year term as the country’s first mixed-race president”
[DE 12,

161]. Finally, the Amended Complaint notes that five white individuals were

hired by English [DE 12, if 158] during his tenure at HACFL.

7

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 8 of 11

None of these allegations are sufficient to establish the existence of racial animus
toward this Plaintiff or toward any other individual on the basis of race by Defendant.
Where, as here,

allegations of discriminatory intent fail to rise above the level of

speculation, the complaint must be dismissed.

Ridley v. VMT Long Term Care

Management, 68 F. Supp. 3d 88 (D.D.C. 2014). “Without a factual basis to support an
inference of discrimination based on plaintiffs race, the [amended] complaint asserts
nothing more than a ‘mere possibility of misconduct.’” Id at 93 (quoting Iqbal, 556 U.S. at
679). This is not sufficient to defeat a motion to dismiss. Accordingly, the undersigned
recommends that Count IV be dismissed for failure to state a claim upon which relief can
be granted.
3.

Failure to State a Claim for Retaliation

Counts V and VII of the Amended Complaint allege that Defendant retaliated
against Plaintiff because she engaged in activities protected by Title VII and the ADEA.
In addition to being barred for failing to exhaust administrative remedies (see, supra.
section 1), the Amended Complaint fails to allege any facts that would support a claim for
retaliation. To state a claim for retaliation, a plaintiff must show that she engaged in
“statutorily protected activity,” that an adverse employment action occurred, and that the
adverse action was related to the plaintiffs protected activities. Coutu v. Martin County Bd.
of County Com’rs, 47 F.3d 1068,1074 (11th Cir. 1995).
The Amended Complaint fails to allege that Plaintiff engaged in any protected
activities prior to her termination and her not being hired as a director in November 2015
and, as such, fails to state a claim for retaliation. The employment decisions about which
Plaintiff complained occurred before she filed a charge with the EEOC and, therefore, they
8

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 9 of 11

cannot be considered retaliatory. To the extent that the Amended Complaint alleges that
a retaliatory failure to hire her in 2016 and 2017 [DE 12,

179 -188], Plaintiffs claim is

outside the time period submitted to the EEOC and, therefore, is barred as well. See Lara
v. Raytheon Corp., 2011 WL 3919602, at *4 (M.D. Fla. Sept. 7, 2011) (dismissing claims
based on events occurring outside the scope of dates set forth in an EEOC charge). In
any event, Plaintiff alleges no facts from which retaliatory behavior could be inferred.
Accordingly, the undersigned concludes that Counts V and VII of the Amended Complaint
fail to state a claim upon which relief can be granted and recommends that those counts
be dismissed.
B.

Motion to Strike

Defendant moves to strike numerous paragraphs from Plaintiffs Amended
Complaint pursuant to Rule 12(f), Federal Rules of Civil Procedure. The court may strike
from any pleading any “redundant, immaterial, impertinent, or scandalous matter.” Nash
v. O.R. Colan Group, LLC. 2012 WL 4338817, at *1 (S.D. Fla. Sept. 20,2012). This Court
has addressed this issue before, when it dismissed Plaintiffs initial Complaint [DE 8 and
10]. Like the initial Complaint, Plaintiffs Amended Complaint is replete with a recitation of
the history of racial tensions in the United States, Plaintiffs unrelated community activities,
and matters that occurred during the EEOC process. These are matters that are not
property included in a pleading and, therefore, the undersigned recommends thatthe Court
strike from the Amended Complaint the following paragraphs: 12-15; 17-38; 45; 64-65; 6768; 75-77; 82-113; 155-156; 161-162; 183-186; and 294J.

9

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 10 of 11

111.

CONCLUSION
In light of the foregoing discussion, the undersigned RECOMMENDS that

Defendant’s Motion to Dismiss and Motion to Strike [DE 14] be GRANTED. In that this is
Plaintiffs Amended Complaint and Plaintiff has again failed to allege any facts that would
establish a basis for relief as alleged in Counts I, II, III, IV, V, VII and VIII, the undersigned
recommends that those Counts be dismissed with prejudice. The undersigned further
RECOMMENDS that paragraphs 12-15,17-38,45,64-65,67-68,75-77,83-113,155-156,
161-162, 183-186, and 294J be STRICKEN.
The parties will have fourteen (14) days from the date of being served with a copy
of this Report and Recommendation within which to file written objections, if any, with the
Honorable Federico A. Moreno, United States District Judge. Any objections that are
filed shall be limited to 20 pages in length, double-spaced, with no excessive
footnotes, attachments, or exhibits. Failure to file objections timely shall bar the parties
from a de novo determination by the District Judge of an issue covered in the Report and
shall bar the parties from attacking on appeal unobjected-to factual and legal conclusions
contained in this Report except upon grounds of plain error if necessary in the interest of

10

Case 0:18-cv-61662-FAM Document 34 Entered on FLSD Docket 02/01/2019 Page 11 of 11

justice. See 28 U.S.C. § 636(b)(1); Thomas v. Am. 474 U.S. 140,149 (1985); Henley v.
Johnson. 885 F.2d 790, 794 (1989); 11th Cir. R. 3-1 (2016).
DONE AND SUBMITTED in Chambers, Fort Lauderdale, Florida, this 1st day of
February 2019.

BARRY S. SELTZER
Magistrate Judg
Unite'
Copies furnished via CM/ECF to:
Hon. Federico A. Moreno
Counsel of record and unrepresented parties

11

Appendix G

Case 0:18-cv-61662-FAM Document 10 Entered on FLSD Docket 08/24/2018 Page 1 of 2

UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA
Fort Lauderdale Division
Case Number: 18-61662-CIV-MORENO
CAROLYN HICKS-WASHINGTON,
Plaintiff,
vs.
THE HOUSING AUTHORITY OF THE CITY
OF FORT LAUDERDALE, and TAM
ENGLISH,
Defendants.
ORDER ADOPTING MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
AND DISMISSING PLAINTIFF’S COMPLAINT WITH LEAVE TO AMEND
THE MATTER was referred to the Honorable Barry S. Seltzer, United States Magistrate
Judge, for a Report and Recommendation on Defendants' Motion to Strike and Motion to
Dismiss, or in the Alternative, Motion for Summary Judgment, filed on July 23. 2018. The
Magistrate Judge filed a Report and Recommendation (D.E. 8) on August 21. 2018. The Court
has reviewed the entire file and record. The Court has made a de novo review of the issues
presented in the Magistrate Judge’s Report and Recommendation, and being otherwise fully
advised in the premises, it is
ADJUDGED that United States Magistrate Judge Barry S. Seltzer’s Report and
Recommendation is AFFIRMED and ADOPTED. Accordingly, it is
ADJUDGED as follows:
(1) Defendants’ Motions to Dismiss and Strike are GRANTED,
(2) Defendants’ Motion for Summary Judgment is DENIED, and
(3) Plaintiffs Complaint is DISMISSED with leave to amend.
DONE AND ORDERED in Chambers at Miami, Florida, this

A

of August 2018.

jA.M&KENO
FEDE
UNITED S TATCS DISTRICT JUDGE

Case 0:18-cv-61662-FAM Document 10 Entered on FLSD Docket 08/24/2018 Page 2 of 2

Copies furnished to:
United States Magistrate Judge Barry S. Seltzer
Counsel of Record

2

c

Appendix H

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 1 of 10

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-61662-CIV-MORENO/SELTZER
CAROLYN HICKS-WASHINGTON,
Plaintiff,
vs.
THE HOUSING AUTHORITY OF THE
CITY OF FORT LAUDERDALE and
TAM ENGLISH,
Defendants.
REPORT AND RECOMMENDATION
THIS CAUSE is before the Court pursuant to the Motion to Strike and Motion to
Dismiss, or in the Alternative, Motion for Summary Judgment [DE 41 filed by Defendants
The Housing Authority of the City of Fort Lauderdale (“HACFL”) and Tam English
(“English”). The District Court entered an Order of Referral [DE 6] referring all pretrial
matters to the undersigned for appropriate disposition or recommendation pursuant to 28
U.S.C. § 636(b) and the Magistrate Judge Rules for the United States District Court for the
Southern District of Florida. After review of the pro se Plaintiffs Complaint, Defendants’
Motion and the relevant case law, the undersigned recommends that Defendants' Motion
to Dismiss and Motion to Strike be GRANTED, that the alternative Motion for Summary
Judgment be DENIED, and that Plaintiffs Complaint be DISMISSED with leave to amend.
BACKGROUND
Plaintiff, Carolyn Hicks-Washington (“Hicks-Washington”), filed a Pro Se Complaint
[DE 1-4] in the Circuit Court for Broward County, Florida. Defendants removed the case

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 2 of 10

to this Court on the basis of federal question jurisdiction [DE 1]. The Complaint alleges
violations of Section 1981 of the Civil Rights Act of 1866, 42 U.S.C. § 1981 (“Section
1981”), Title VII of the Civil Rights Act of 1964,42 U.S.C. § 2000e to 2000e-17 (“Title VII”),
the Age Discrimination in Employment Act, 29 U.S.C. § 626, etseq., (“ADEA”), the Florida
Civil Rights Act of 1992, Fla. Stat. Ann. § 760.01-11, and common law claims for
defamation and intentional infliction of emotional distress.
Hicks-Washington is a black American woman who is over the age of forty. She
alleges that she was terminated from her job as the Assistant Director of Assisted Housing
at the HACFL without warning and because of her race, color, perceived national origin
and/or gender, that Defendants retaliated against her for engaging in protected activities,
that defendants committed defamation against her in comments made in their filings and
arguments to the EEOC, and that Defendants’ statements were intentional and caused her
emotional distress. The Complaint raises ten counts regarding her termination: (1)
disparate treatment in violation of Title VII; (2) disparate treatment in violation of Section
1981; (3) age discrimination in violation of the ADEA; (4) discrimination on the basis of
race, color, perceived national origin, gender and/or age in violation of the Florida Civil
Rights Act; (5) retaliation in violation of Section 1981; (6) retaliation in violation of Title VII;
(7) retaliation in violation of the ADEA; (8) defamation per se; (9) general defamation; and
(10) intentional infliction of emotional distress. She seeks $35 million in damages against
Defendants.
On page 28 of the Complaint, Plaintiff sets forth a second set of factual allegations
that pertain to Defendants’ failure to rehire her. She raises ten counts regarding the failure
to rehire: (1) disparate treatment in violation of Title VII; (2) disparate treatment in violation
2

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 3 of 10

of § 1981; (3) discrimination in violation of the ADEA; (4) discrimination in violation of the
Florida Civil Rights Act of 1992; (5) retaliation in violation of § 1981; (6) retaliation in
violation of Title VII; (7) retaliation in violation of the ADEA; (8) common law defamation
“per se”; (9) common law general defamation; and (10) intentional infliction of emotional
distress.
Defendants have moved to dismiss the Complaint in its entirety, to strike portions
of the Complaint, or in the alternative, for summary judgment [DE 4]. Plaintiff filed a
responsive memorandum on August 2,2018 [DE 5]. No reply was filed, and this matter
is now ripe for consideration.
II.

DISCUSSION
Defendants move to strike certain paragraphs in Plaintiffs Complaint because they

recite confidential mediation statements made by Defendants at the EEOC mediation in
violation of 5 U.S.C. § 574(c). Defendants also move to dismiss the common law claims
for defamation and intentional infliction of emotional distress for failure to state a claim
upon which relief can be granted, as well as on grounds of absolute and sovereign
immunity.

Further, Defendants argue that despite the shotgun nature of Plaintiffs

Complaint, the allegations of the Complaint fail to state claims for race or color, national
origin, gender or age-based disparate treatment, or retaliation. Finally, English argues that
the Complaint fails to indicate whether he is being sued in his individual or official capacity
and, if he is being sued in his individual capacity, the claims are barred by the doctrine of
qualified immunity. He also argues that the Title VII and ADEA claims against him are
barred because an individual is not a proper party to Title VII or ADEA claims.

3

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 4 of 10

The undersigned notes that Hicks-Washington is appearing pro se. “Pro se
pleadings are held to a less stringent standard than pleadings drafted by attorneys” and
are to be liberally construed. Bingham v. Thomas. 654 F.3d 1171,1175(11 thCir. 2011).
However, the leniency afforded prose litigants neither authorizes nor requires the Court
“to serve as de facto counsel or to rewrite an otherwise deficient pleading in order to
sustain an action.” Shuler v. Ingram & Assocs.. 441 F. App’x 712,717 n.3 (11th Cir. 2011).
Pro se litigants are subject to the rules of court and the relevant law. Moon v. Newsome.
863 F.2d 835, 837 (11th Cir. 1989).
A.

Motion to Strike

“A ‘court may strike from any pleading any insufficient defense or any redundant,
immaterial, impertinent, or scandalous matter.’ ” Nash v. O.R. Colan Group, LLC, 2012 WL
4338817, at *1 (S.D.FIa. Sept. 20, 2012) (citing Fed. R. Civ. P. 12(f)). A motion to strike
is intended to clean up the pleadings, removing irrelevant or otherwise confusing materials.
See 700 Liberty Media Holdings. LLC v. Wintice Group. Inc..2010 WL 2367227, at *1
(M.D.FIa. June 14, 2010) (noting that motions to strike are used to avoid unnecessary
forays into immaterial matters).
Defendants move to strike those allegations in the Complaint that reference
statements Defendants made during the EEOC mediation [DE 1-4,

81-86]. Hicks-

Washington does not object to those allegations being stricken [DE 5, n.2]. Accordingly,
the undersigned recommends that paragraphs 81-86 be stricken.
In addition, the undersigned notes that the Complaint contains a large amount of
redundant and immaterial matter. For example, paragraphs 13 to 26 set forth a history of
the civil rights laws and the circumstances that led to their enactment. These allegations
4

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 5 of 10

are more in the nature of argument and are not elements of Plaintiffs claims. The
undersigned, therefore, recommends that paragraphs 13 to 26 be stricken as well.
In her opposition memorandum [DE 5, p. 20], Washington-Hicks asks the Court for
leave to amend her Complaint to bring claims against the attorneys who represented
Defendants before the EEOC. She intends to name these attorneys “as parties to this
action so the Court can use its inherent power to issue disciplinary and monetary sanctions
against the Defendants’ former legal counsel - for intentional violations under the Florida
Rules of Professional Conduct.” Id, The undersigned recommends that Plaintiff not be
permitted to name Defendants’ former attorneys as parties to this case. This Court is
unable to sanction lawyers for conduct that did not occur in this Court. Accordingly, any
allegations concerning Defendants’ former attorneys are immaterial and impertinent and
subject to being stricken.
B.

Motion to Dismiss

Several matters raised in Defendants’ Motion to Dismiss can be resolved without
lengthy discussion, and those matters are addressed immediately below. Other issues
pertaining to Plaintiffs civil rights claim and the pleading itself are addressed in greater
length, infra.
1.

Common law claims

Defendants move to dismiss the common law defamation and intentional infliction
of emotional distress claims (Counts 8, 9, and 10). Plaintiff agrees that these counts fail
to state a claim and should be dismissed [DE 5, p. 3]. Accordingly, the undersigned
recommends that Counts 8, 9, and 10 be dismissed with prejudice.

5

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 6 of 10

2.

Claims Against Defendant English

Defendant English moves to dismiss the civil rights claims against him because (1)
it is unclear whether he is being sued in his individual or official capacity, and (2) he is not
individually subject to suit for Title VII and ADEA claims. Plaintiff asks the court to dismiss
the claims against English in his official capacity [DE 5, p. 21] but seeks leave to file an
amended complaint against English to raise a claim under 42 U.S.C. § 1983. The
undersigned cannot evaluate a claim that has not yet been made, but does recommend
that Plaintiffs claims against English for violations of § 1981, Title VII, the ADEA, and the
Florida Civil Rights Act be dismissed with prejudice.
3.

Claims for National Origin Discrimination

Hicks-Washington alleges national origin discrimination in violation of Title VII and
the Florida Civil Rights Act. Yet, she admits that she was bom and raised in North Carolina
[DE 1-4, K 34], The undersigned is not aware of any legal basis for claiming national origin
discrimination on the basis of state of birth:
National origin discrimination does not encompass
discrimination against someone because of their origin in a
particular state or region of the United States. See Storey v.
Burns Int’l Sec. Services, 390 F.3d 760, 766 (3d Cir.2004)
(“Following Espinoza, the few courts that have considered the
issue directly have rejected ‘national origin’ claims based on
Confederate or Southern American heritage.”); Fowler v.
Visiting Nurse Serv. of N.Y.. 06 CIV. 4351 (NRB), 2007 WL
3256129 (S.D.N.Y. Oct. 31, 2007) (“the regional differences
among the people of this country do not create protected
classes”); Langadinos v. Appalachian Sch. of Law,
1:05CV00039, 2005 WL 2333460, at *8 (W.D.Va. Sept.25,
2005) (plaintiffs background in the Northeastern part of the
United States was not a protected trait).

6

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 7 of 10

Gottschalk v. City & Ctv. of San Francisco,2013 WL 557010, at *8 (N.D. Cal. Feb. 12,
2013). Accordingly, the undersigned recommends that Plaintiffs claims for national origin
discrimination be dismissed with prejudice.
4.

Plaintiffs Complaint

In her opposition memorandum, Plaintiff explains that she “wrote her detailed and
highly organized complaint as if it were a motion for summary judgment” [DE 5, p. 17].
Therein lies the problem.
Federal Rule of Civil Procedure 8(a)(2) requires that a pleading contain a “short and
plain statement of the claim” showing that the pleader is entitled to relief. Fed. R. Civ. P.
8(a)(2). Thereunder, “a complaint must contain sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,678
(200() (quoting Bell Atl. Corp. v. Twomblv. 550 U.S. 544, 570 (2007)). Consequently, “to
state a plausible claim for relief, the plaintiffQ must plead ‘factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.’” Sinaltrainal v. Coca-Cola Co.. 578 F.3d 1252,1268 (11th Cir. 2009) (alteration
added) (quoting Iqbal, 556 U.S. at 678).
The opposite of a short and plain statement of the claim is what is known as a
“shotgun” pleading. “‘Shotgun’ pleadings are cumbersome, confusing complaints that do
not comply with these pleading requirements. We have repeatedly condemned shotgun
pleadings.” See Weiland v. Palm Beach Ctv. Sheriffs Office. 792 F.3d 1313,1321-23 nn.
11-15 (11 th Cir. 2015). There are four basic types of shotgun pleadings: (1) those in which
each count adopts the allegations of all preceding counts; (2) those that do not re-allege
all preceding counts but are replete with conclusory, vague, and immaterial facts not
7

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 8 of 10

obviously connected to any particular cause of action; (3) those that do not separate each
cause of action or claim for relief into a different count; and (4) those that assert multiple
claims against multiple defendants without specifying which applies to which. Id. at
1321-23 (quotations omitted). ‘The unifying characteristic of all types of shotgun pleadings
is that they fail to... give the defendants adequate notice of the claims against them and
the grounds upon which each claim rests.” Id. at 1323. Yeyille v. Miami Dade Cty. Pub.
Sch.. 643 F. App'x 882, 884 (11th Cir. 2016).
Plaintiffs Complaint is a shotgun pleading in the first sense: each count repeats
and re-alleges all of the preceding paragraphs and counts. In addition, having admittedly
been drafted as a motion for summary judgment, the Complaint is also a shotgun pleading
in the second sense: it is replete with conclusory, vague and immaterial facts not obviously
connected to a particular cause of action.

For these reasons, the undersigned

recommends that the Complaint be dismissed with leave to amend.
To state a claim for discrimination on the basis of race, age, or gender, Plaintiff must
allege facts showing that she (1) belongs to a protected class; (2) was qualified to do the
job; (3) was subjected to an adverse employment action; and (4) was replaced by or
treated differently than somebody outside the protected class. McDonnell Douglas Corp.
v. Green, 411 U.S. 792 (1973) (race); Hinson v. Clinch County, Ga. Bd. of Educ.. 231 F.3d
821,828 (11th Cir. 2000) (gender); Burke-Fowler v. Orange County, 447 F.3d 1319 (11th
Cir. 2006) (age). Given the shotgun nature of the Complaint, it is unclear whether Plaintiff
has, or indeed can, allege the elements of a discrimination claim based upon race, age,
or gender.

Although Defendants move for summary judgment, the undersigned

recommends that Plaintiff be afforded the opportunity to submit an amended complaint that
8

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 9 of 10

contains a short and plain statement her claims with sufficient factual detail to allow the
Court “to draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Iqbal. 556 U.S. at 678.
III.

CONCLUSION
As set forth above, Plaintiffs Complaint is a shotgun pleading that contains a large

amount of irrelevant and immaterial allegations. In addition, certain claims raised by
Plaintiff fail as a matter of law. Accordingly, the undersigned RECOMMENDS that
Defendants’ Motion to Strike and Motion to Dismiss, or in the Alternative, Motion for
Summary Judgment [DE 4] be GRANTED IN PART and DENIED IN PART, as follows:
1.

That the allegations contained in paragraphs 13 to 26 and 81 to 86 be
STRICKEN and not re-alleged;

2.

That Plaintiffs claims for defamation per se, common law defamation, and
intentional infliction of emotional distress (Counts 8, 9, and 10) be
DISMISSED WITH PREJUDICE;

3.

That Plaintiffs claims for national origin discrimination be DISMISSED WITH
PREJUDICE;

4.

That the disparate treatment and retaliation claims against Tam English
(Counts 1, 2, 3,4, 5, 6, and 7) be DISMISSED WITH PREJUDICE;

5.

That the remainder of Plaintiffs Complaint be dismissed without prejudice
and that Plaintiff be afforded the opportunity to file an Amended Complaint
consistent with the analysis set forth in this Report and Recommendation;

6.

That Plaintiff not be permitted to file a claim against Defendants’ EEOC
attorneys; and
9

Case 0:18-cv-61662-FAM Document 8 Entered on FLSD Docket 08/21/2018 Page 10 of 10

7.

That Defendants’ Motion for Summary Judgment be DENIED WITHOUT
PREJUDICE to renew, if appropriate, after Plaintiff files an Amended
Complaint.

The parties will have fourteen (14) days from the date of being served with a copy
of this Report and Recommendation within which to file written objections, if any, with the
Honorable Federico A. Moreno, United States District Judge. Failure to file objections
timely shall bar the parties from a de novo determination by the District Judge of an issue
covered in the Report and shall bar the parties from attacking on appeal unobjected-to
factual and legal conclusions contained in this Report except upon grounds of plain error
if necessary in the interest of justice. See 28 U.S.C. § 636(b)(1); Thomas v. Arn, 474 U.S.
140,149 (1985); Henley v. Johnson, 885 F.2d 790, 794 (1989); 11th Cir. R. 3-1 (2016).
DONE AND SUBMITTED in Chambers, Fort Lauderdale, Florida, this 21st day of
August 2018.

C
BARRY S. SELT?ER
Magistrate Judg
Unite

Copies furnished via CM/ECF to:
Hon. Federico A. Moreno
Counsel of record via CM/ECF and to:
Carolyn Hicks-Washington
3613 Lime Hill Road
Lauderhill, FL 33319

10

U\

V

Appendix I

Case 0:18-c«*ifilfi62-£A^lwUACU[peDt^2rJ..I^ritered onJFLSD Docket 05/23/2019 Page 283 of
329
A0^245B (Rev. 2 (VIS) F*^4gni*nT m | rfim^
Shot* i

United States District Court
Western District of Arkansas

)
>
)
)
)
)
)

UNITED STATES OF AMERICA
v.

BARBARA LOUISE BAER

JUDGMENT IN A CRIMINAL CASE

)
)

THE DEFENDANT:
X pleaded guilty to counts)

Case Number:

6:15CR60017-001

USM Number

12592-010

Sal Integliata______
Defendant's Attorney

One of the Information on May 22, 2015.

□ pleaded nolo contendere to counts)
which was accepted by the court.

~

□ was found guilty on counts)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
18 U. S. C.641

Nature of Offirnt
Theft of Public Funds
(Class C Felony)

Offense Ended
03/29/2014

The defendant is sentenced as provided in pages 2 through__ 5_
Reform Act of 1984.

C—at
1

of this judgment The sentence is imposed pursuant to the Sentencing

O The defendant has been found not guilty on counts)
□ Count(s)

□ «

defendant must notify fee court and United States attorney of:

D are dismissed on fee motion of fee United States.
for this district within 30 days ofany efamge ofn«me) wiiiwiff nr noting
ia^dmmgcs in economic ciicmnstao<xg^
pay restitution,
March 31,2016_______
Die of Inyu&itkm of Judgment

til Susan O. Hickey
Signtfuie rfhdge

The Honorable Susan O. Hickey, U. S. District Judge
Name nd Title of lodge
April 1, 2016
Dmt

AO

Entered^ J=l^Pqq|$t P5/23/2019 Page 284 of

bEFENDANT:
CASE NUMBER:

Jorigmrm—Py

BARBARA LOUISE BAER
6:15CR60017-001

of

PROBATION
The defendant is hereby sentenced to probation for • term of:

two-(2> years

The defendant shall not commit soother federal, stale or local crime.

poses a low risk of

□

The defendant .hall partcipate in an proved program for domestic violence. (Ckcd,
pay tn accordance with the Schedule of Payments

Tbcdefendant must comply with the standard cmxfiti

ons that have been adopted by this court as well as with any additional conditions

on the

STANDARD CONDITIONS OF SUPERVISION

3

ft* fc&adant shall answer tralMuily all inclines by the pnfatibn ofGco- snd follow He iosmicti
ons of the probation officer,
acc^jt^^«iall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training.
or other

6)
«*sfaDce or any pampbenSS'r^K6n£
8)

the defendant shall not frequent places where control!
ed substances are illegally sold, used, distributed, or administered;
felony, unless granted

10>

adminlster ^ controI1«i

«** *h*U not associate with any person convicted of a

^^°^^^n^*^^t<^^feMmy^«^oretsewhereandSh^pennttc0„f^tx»of«Iy

II) the defendant shall notify the probation officer within sevany-two hours of tang arrested
or questioned by a law enforcement officer;
fee defendant shall not enter into
13)

my agreement to act as an informer or a special agent of a law enforcement agency without the
Ponmssion of the coort; and
as directed by the
record or persona
s compliance wife such notification requirement

s»«TOr»»*KsaM

AO24ffia^fi.£i^8ai^S^^ifi(^^''1^0Cumeprtwil2“i-'Gntere€l-0R-^L^CLDoG^eLQ5/23/2019
Shett<—SefagfafeofPwmant.
329
DEFENDANT:
CASE NUMBER:

Jodgronar—page

BARBARA LOUISE BAER
6:15CR60017-001

5

of

Page 287 of
5

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due
A

X

Lump sum payment of $
□
X

not later than
in accordance

6,143.90

□ C,

□ D,

as follows:

due immediately, balance due

Cl

. or
E, or

X F below; or

B

□

C

Q Payment in equal

D

Q

Payment in equal
- (e‘Z~ weekly, monthly, quarterly) installments of S
__________ overaperiodof
(eg.. mouths oryears), to commence
(e.g„ 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

□

F

X

Payment during die term of supervised release will commence within
(eg., 30 or 60 days) after release from
unpiisonmcnt The court will set the payment plan based on an
assessment of the defendant’s ability to pay at th»t time; or
Special instructions regarding the payment of criminal monetary penalties:

Payment to begin immediately (may be combined with

Q C,

O D, or

Q F below); or

--------- faZ- weekly, monthly, quarterly) instaHnv-nte of $
____________overaperiodof
__ f^-g; months or yean), to ooauaeaoc
------- (*-g- 30 or 60 days) after Ac date of this judgment; or

am0BalS ofnotlessth”10%

defendant’s net monthly

Tbe defendant shall receive cmdit for all payments previously made toward any crirmwd monetary penJties imposed.

D

Joint and Several
(including Attendant number). Total Amount, Joint and Several Amount,

□

The defendant shall pay the cost ofprosecution.

□

The defendant shall pay the following court cost(s):

Case 0:18-c\A®f8&2tfE:AM'^©eebwrtenW7S*i.^&nter.eGLjDDJflLSIi Q0£L££LQ£^3/2019 Page 2Bb or
329

memorandum
To:

From:
Reviewed:
Re:

Date:

Honorable J. Thomas Marten
Chief U.S. District Judge
Annelies M. Snook
U.S. Probation Officer Assistant
Chris S. McNiel^^^^^
Supervisory U.S. Probation Officer
Barbara Louise Baer
Case No. 1083 6.16CM60023-001
SUSPENSION OF SUBSTANCE ABUSE TREATMENT CONDITION
May 4,2016

cradiriOT of thc^endant’s supervised release, she was ordered by the Coart to participate in
trBatoCnt Jurisdiction
this case has been traSKto thea

^J^^t^TCt^XV^dltClea3C OT 03/31/2016’ “d ^ been subject to random
^
** **
office An tests have been negate and there
^
^ iUegal drUgS‘ Therefore> *e does not^ar to be in
aW

?d

0fficCT resPcctfi% recommends thatAcsubstance

13“
request or require additional information, please feel free to contact this officer.
COURT CONCURS
x
COURT DOES NOT CONCUR
s/ J. Thomas Marten
U.S. District iudgp
May 5.2016
Date
^ ^ - WW** « raw«1 - 31&315.4400 - FAX: 318315.4401 or4402 -1.888324.1458

s

Appendix J

!

B LU E ROCK
L E G A l, P.A.
A

PRIVATE

LAW

FIRM

Direct Dial: (305) 981-4300
Facsimile: (305)981-4304
dgonzalez@bluerocklegal.com
February 2,2017
Via: U.S. Mail
Katherine Gonzalez, Investigator
Equal Employment Opportunity Commission
100 SJE. 2nd Street, Suite 1500
Miami, FL 33131

•:

Re: Carolyn Washington v. The Housing Authority of the City of Ft. Lauderdale. Florida
EEOC Charge No. 510-2016-02801

:«si

Dear Ms. Gonzalez:
As you file will reflect, this law firm represents The Housing Authority of the City of Ft
Lauderdale, Florida (“Respondent”) in defense of the charge of employment discrimination filed
by Carolyn Washington (“Charging Party”). This letter and the attached documents will serve as
the Respondent’s position statement in response to die charge.
Preliminary Statement
Respondent is a municipal agency that provides housing opportunities to qualifying
individuals. Respondent administers public housing programs sponsored by the federal, state and
local governments. The Respondent receives partial funding from the U.S. Department ofHousing
and Urban Development (“HUD”), and is required to follow HUD’s strict regulations in managing
communities.
!

i

The Charging Party worked for Respondent as die Assistant Director of Section 8 from
2005 to 2010, and as the Assistant Director of Assisted Housing from 2010 to 2015. The
Respondent’s “Section 8” Department is a subsidized housing program in which participants
receive housing subsidies for the rental of housing in the private marketplace. The Housing
Authority administers that program with an internal staff of trained employees who accept
applications, supervise the process ofawarding housing subsidies to applicants, monitor the quality
and care of the living units available to participants, and every other aspect of the program. It is a
busy office performing important work.

1
10800 Biscayne Boulevard | Suite 410 | Miami, FL 33161
www.biuerockiegal.com

s

\I
I
■i

The Charging Party and her supervisor were terminated from employment at the same time
and for the same reasons. The Charging Party could not keep a stable staff of competent personnel
in the department. Ms. Washington had an oppressive management style and, for several years,
employees had resigned horn die department citing die way that they had been treated by her.
Employee turnover in the department was extreme during the last year of her employment The
Charging Party was terminated on November 13,2015. Since then, turnover has moderated.

'i

!

1

•.!

The present charge is for alleged “age” discrimination. The Charging Party alleges that
she was employed by the Respondent as an Assistant Director of Assisted Housing until she was
“terminated because of [her] age by Executive Director, Tam English, and Chief Financial Officer,
Michael Tadros.” She alleges that Mr. English “on more than one occasion mentioned to my
Supervisor, Veronica Lopez, and I that we were getting older and who do we have to replace us.”
She claims that “[t]his was a pattern or practice” because “in 2010, we were provided with an
additional workload that included a title change, that was previously assigned to” two other
employees. The Charging Party claims that she was discharged on November 16, 2015, and that
she was replaced “by Anita Flores,” who she alleges is “under 40 years of age.” The Charging
Party also claims that she was subjected to hiring discrimination after she applied to the Director
of Housing Choice Voucher Program position and was not given an interview for the position.
She alleges that the reason she was given for her termination was that the Respondent “was moving
in a different direction.”

• !
■

‘!

■'!

We have conducted an investigation and we have determined that the charge is entirely
without merit. The Charging Party was terminated for legitimate reasons that had nothing to do
with age discrimination. The Charging Party had a harsh management style that created a difficult
and uncomfortable work environment, increased workplace stress, and decreased employee
morale. The Charging Party’s harsh management style drove many employees away over die
years. The Charging Party’s department had extreme levels of employee turnover and resulting
instability. The Respondent terminated the Charging Party in order to improve its work
environment and maintain a stable workforce.
Background Information

:
I

i

.!

The Charging Party was hired by the Respondent in October, 2005, as die Assistant
Director of Section 8. The Respondent had then and has now three departments, “Section 8,”
“Public Housing,” and “Affordable Housing.” “Section 8” is housing voucher program in which
the Respondent provides financial assistance to qualifying residents to aid the residents with their
housing rental costs in the private marketplace. The Respondent does not own any of the
residential properties that are part of Section 8. The residential properties are owned by private
landlords, and qualifying residents use the Housing Authority’s financial assistance to pay rent to
private landlords.
Conversely, in “Public Housing,” the Respondent owns and manages residential properties
and rents out property units to qualifying low-income residents. The Housing Authority operates
and maintains its own properties with local managers and maintenance staff. Rental payments are
made by participants in the program to the Housing Authority, not a private landlord. The
Respondent also has a third department, “Affordable Housing,” in which the Respondent also

* ;

2

•: •

!

provides affordable housing owned and is managed by the Respondent for qualifying low-income
residents.
'!

The Charging Party was initially employed in Section 8, not Public Housing or Affordable
Housing. As the Assistant Director of Section 8, the Charging Party’s job duties entailed assisting
the Director of Section 8 with running the whole department. This included directly supervising
Section 8 staff, ensuring compliance with federal, state, and local laws and regulations that govern
the Respondent, preparing reports to agencies such as the U.S. Department of Housing and Urban
Development (“HUD”), reviewing applications for Section 8 assistance, training staff members,
and many other duties. The Charging Party worked at an administrative office that has a staff of
approximately 20 employees, though die number of employees working in the department tended
to fluctuate under the Charging Party’s supervision. The Charging Party was directiy supervised
by Ms. Veronica Lopez, the Director of Section 8.
The Charging Party was knowledgeable about Section 8. She had strong knowledge of
housing regulations and how the department was supposed to function. However, a very important
issue with the Charging Party was apparent for some time. She exhibited a harsh and overbearing
management style and inability to get along with the subordinate employees in the department.
She was known to berate employees, make sarcastic and demeaning comments, and deliver
criticism harshly.

!

i

I

I

•<

The Charging Party received annual performance reviews from her supervisor, Ms. Lopez.
While the reviews were mostly positive, they contained negative comments about the Charging
Party’s communication with and leadership of employees. The performance reviews are attached
as Exhibit A. These negative comments consistently appeared on her performance reviews
throughout her employment The Charging Party was continually reminded of her mistreatment
of employees. The Housing Authority tolerated this part of her performance for years because of
her valuable knowledge of Section 8 programs, but she continually failed to improve.
The Charging Party’s 2007 performance review noted a complaint by one of the Charging
Party’s subordinates that the Charging Party responded to inquiries “indicating impatience” or
“sarcastic comments” such as “well you guys think you know everything” and “were you not
listening when I explained this to you,” In 2009, her performance review noted that the Charging
Party “may become frustrated in the low performance of employees” and which results in her
“delivering criticism that may be tinged with an opinion on the reason for the employee’s failure
to perform,” The performance review recommended management training so that the Charging
Party can improve how she delivers criticism. Her 2010 performance review noted that the
Charging Party “needs to learn to monitor her body language to avoid transmitting the wrong
message” and that “she should strive to maintain control of all areas of communication.”
These performance evaluations were completed by the Charging Party’s supervisor,
Veronica Lopez. Ms. Lopez was terminated along with the Charging Party and for the same
reasons as the Charging Party, fomenting instability in the staff in the department
In 2010, the Charging Party’s title was changed to Assistant Director of Assisted Housing,
which included management responsibilities over both Section 8 and Public Housing. She retained
3

i

her management responsibilities in Section 8, but the new title added limited supervisory duties
over two community managers in the Public Housing department Community managers are on­
site managers of the residential properties in Public Housing Department, whose duties include
collecting rent, attending to the needs of residents, inspecting property units, scheduling and
performing maintenance, among other duties. With the title change, the Charging Party supervised
two community managers and several residential properties in the Public Housing Department.
She continued to be directly supervised by Ms. Lopez, who was given the new title of Director of
Assisted Housing. The Respondent added these additional supervisory duties to the Charging
Party and Ms. Lopez because the Respondent was shrinking its Public Housing Department, and
the Charging Party and Ms. Lopez were able to take on management duties of the smaller
department.
The Charging Party’s management style did not improve. A performance review dated
February 2,2011, noted that, when working with subordinates, she must “strive to assure that when
asking open questions she waits until the full response is obtained prior to questioning further and
then giving guidance attempting not to show her frustration through body language.” A second
performance review from 2011, dated September 8, 2011, noted that “she becomes frustrated at
time with some employees’ failure to discharge their duties” and that her frustration “influence[s]
her own delivery of expectations” and that she must improve her delivery of criticism. Her 2012
performance review noted that she must “understand that” employees “are to be evaluated against
performance standards not against each other.” Her 2014 performance review noted that she would
“benefit from training in Conflict Resolution and should seek the opportunity to participate in such
training to assist her in mediating issues arising between employee and/or with her own
subordinates.”
The Charging Party’s management style created a difficult and uncomfortable work
environment that drove many employees away. This created considerable turnover and instability
in the Respondent’s workforce for several years. We have attached as Exhibit B a list of the
employees that abandoned employment with the Respondent over the years. It is important to note
that Respondent only employs approximately 20 employees at the office where the Charging Party
worked, and the Charging Party also supervised an additional two employees Community
Managers that worked at other locations. In 2012, 12 employees (more than half) terminated
employment In 2013,9 employees left (nearly half). In 2014,7 employees left
And finally, in 2015, tire year that the Charging Party was terminated from employment,
14 employees left the department. In the year of her termination, nearly 75% of the employees
working for the Charging Party left their jobs. In a few cases over the years, an employee in the
department had been terminated from employment usually because the employee did not have the
skills necessary to do the job. The overwhelming majority ofthese employees, however, quit their
jobs. The Respondent was consistently turning over an average of greater than 50% of its staff
every year.
!
i

Many of the employees who left specifically cited the Charging Party’s management style
issues as the reason for leaving. One employee, a Community Manager named Felix Mercedes,
would not even speak to the Charging Party when he resigned. He had started in June, 2013, and
resigned in November, 2014. He went to the Respondent’s Human Resources Manager, Ms.
4

i

!!

;

Andrea Ayala, and resigned abruptly. He returned his assigned mobile phone and keys to Ms.
Ayala. Ms. Ayala informed him that he must return his phone and keys to his supervisor, the
Charging Party. Mr. Mercedes refused to be in the same room with the Charging Party. He did
not want to see or speak to the Charging Party. Mr. Mercedes’s resignation was sudden and he
was so emotional that he did not complete an exit interview, which is the Respondent’s standard
procedure for exiting employees.

i

Several employees who resigned did provide Exit Interviews, and they cited the Charging
Party’s harsh management and die uncomfortable work environment as a reason for their
resignation. Those Exit Interview Forms are attached as Exhibit C. In each attached Exit
Interview, the resigning employee rated the work environment as “Poor” and stated, in response
to a question about whether foe employee would want to work for foe same supervisor (foe
Charging Party) if they returned, that they would not One employee who resigned, Ms. Anita
Flores, in response to foe question of how foe Respondent could have prevented her from leaving,
stated “removed me from foe supervision of Carolyn Hicks Washington [foe Charging Party].”
Ms. Flores resigned in June, 2012.

■

Other resigning employees had similarly negative comments, Ms. Barbara Colas
complained of a poor work environment that included “yelling across foe office” and complained
of the “way clients and coworkers were spoken to.” Ms. Raquel Brutus-Thomas stated that her
feelings changed about her position after she was first hired due to “environment and management”
and that foe work environment was “stressful and burdensome due to high turnover” and “decrease
in morale. She rated her supervisor (foe Charging Party) as “Poor” in foe areas of “showing
fairness,” “providing appropriate recognition,” “solving problems promptly,” “following policies
and procedures,” “communicating with staff,” “encouraging feedback,” and “knowing how to do
her job.” She also reported feeling “harassed” by her supervisor “in a manner to suggest” that
employees “are taking questionable measures to get their work done or required to go beyond the
scope of what is required and/or necessary.”
The instability caused by the Charging Party created staffing problems for foe Respondent
The work in foe Section S Department can be, at times, stressful and can require long hours. But
foe staff shortages occasioned by the Charging Party made matters much worse. The Respondent
was continuously understaffed, which forced other employees to take on extra work. Employees
were often required to work late into foe night and occasionally on weekends to complete foe work.
This dynamic had the effect of further reducing employee morale.

!
.. X

rv1-',

!

The Respondent’s Executive Director, Mr. Tam English, had been concerned about foe
excessive turnover for some time by foe time he made foe decision to terminate foe Charging Party.
While he realized that any employer will have some natural turnover, he was concerned that foe
turnover in Section 8 was for greater than any other agency in foe area. The Housing Authority of
Broward County, for example, had a staff of employees that reportedly enjoyed working for them
and that there was very little turnover.
Mr. English decided that a change needed to be made to improve employee morale and to
maintain a stable workforce. He decided that foe Charging Party and Ms. Lopez needed to be

*;

1
' I
I

:■

5

.5

•i
!

terminated and new management hired. Thus, on November 13 ,201S,1 Mr. English met with the
Charging Party and informed her of her termination from employment. Mr. English told the
Charging Party that the Respondent was “moving in another direction.” The Respondent
reorganized its management structure, which included eliminating the Charging Party’s position
after she was terminated. Mr. English declined to discuss the details with the Charging Party for
two reasons. First, the Charging Party was well aware of her overbearing management style, the
low employee morale, and excessive turnover in her department. The second reason was to protect
the Charging Party’s future employment prospects. As die Respondent is a government agency,
Mr. English knew that the reason for the Charging Party’s termination would become part of the
public record. Mr. English did not desire to limit the Charging Party’s future job prospects by
unnecessarily discussing the negative details in the public record.

!

|

s

The Charging Party’s claim in the charge that she was replaced by Anita Flores is false.
The Respondent did not replace the Charging Party. Instead, the Respondent eliminated her
position and only hired a new Director of Assisted Housing to replace Ms. Lopez. The person
who was hired as die Director of Assisted Housing was Ms. Medina Johnson-Jennings. It is also
false that the Charging Party was replaced by someone “under 40 years of age,” as alleged in the
charge. Ms. Johnson was 43 years of age at the time she was hired.
Ms. Flores was rehired by the Respondent shortly before the Charging Party was
terminated. She was rehired as a Community Manager in the Affordable Housing department.
She was placed at a residential property in the Public Housing department taking care of
maintenance, collecting rent, inspecting units, and performing other managerial duties at the
property. She was rehired into that position because she expressly refused to work with the
Charging Party. She was not rehired to the Charging Party’s position.
Ms. Flores had previously been employed as an “Intake Coordinator” under die supervision
of the Charging Party, and her job duties included reviewing and processing applications for
Section 8 assistance and supervising intake staff. She resigned in January, 2015, and her Exit
Interview is attached. She resigned because she said that she could no longer stand working under
the Charging Party. Ms. Flores applied to be a Community Manager in the Affordable Housing
department because that position placed her at a residential property and away from the Charging
Party and Ms. Lopez. At the time that she was rehired, Ms. Flores was not aware that the Charging
Party and Ms. Lopez might be terminated.
After the Charging Party had been terminated, Ms. Flores was offered a transfer to her prior
position of Intake Coordinator in Section 8. She accepted the transfer, as she knew that she would
no longer have contact with the Charging Party and Ms. Lopez in that position. Ms. Flores is still
currently employed as an Intake Coordinator by the Respondent She was never employed as
Assistant Director of Assisted Housing, the Charging Party’s former role.
After terminating the Charging Party, the Respondent saw an immediate improvement in
its retention of employees. In 2016, the year after the Charging Party was terminated, there were
only 5 employees turned over in the Section 8 office, a remarkable decrease from the 14 that were
1 Although the charge alleges that her termination was on November 16, 2015, the Charging Party was actually
terminated on November 13,2015.

: -i

6

turned over in the prior year of 2015. This was the Respondent’s lowest number of employee
turnover since 2011.
The Charging Party applied after her termination for a vacancy as Director of Assisted
Housing. She was not given an interview. The position that she applied for as Director of Assisted
Housing had more responsibility than her prior position as Assistant Director of Assisted Housing.
In other words, the Charging Party was applying for her boss’ former job as the head of the
Department
The Respondent had just terminated the Charging Party for all of the reasons set forth
above. The Respondent was certainly not going to “promote” her by rehiring her to an even higher
management position after just having terminated her. The Charging Party was essentially asking
for a promotion to her former supervisor’s job after having just been terminated from her own job.
The reasons for not having granted her an interview for this position are obvious.
The Charging Party’s claim in the charge that that Mr. English ever said to the Charging
Party that she was “getting older” or anything to that effect is a simple falsehood. The Charging
Party simply fabricated that claim. There is absolutely no evidence that Mr. English ever
considered the Charging Party’s age.
It is worth noting that the Charging Party has claimed on prior occasions that her
termination was premised on a variety of protected status. On December 4, 2015, after the
Charging Party was terminated, she sent a letter to the Respondent where she made outlandish and
unsupported accusations claiming that she was terminated because of her “race, color, gender, and
age discrimination.” The letter is attached as Exhibit D.
The present charge is for age discrimination. That claim has no more merit than the other
claims for race, color and gender discrimination that have now been implicitly abandoned by the
Charging Party.
The present charge should be dismissed.

•:

Sincerel;
Daniel Eric Gonzalez

!

.

7

the Appellant of her constitutional right to due process and equal protection under the
V and XIV Amendments to the U.S. Constitution:
• Allowed the HACFL to file an Answer and Affirmative Defenses only
responding to the Appellant’s federal claim of age discrimination (Count
VI).
• Struck paragraphs concerning the EEOC’s investigation per the
Appellee s request, knowing that those facts demonstrated that the
Appellee’s counsel were raising frivolous defenses in violation of Fed
R. Civ.P. 11.
• Refusing to allow for Fed. R. Civ. P. 26(f) conference.
• Denying Appellant’s January 30, 2019 Motion for Clarification/More
Definite Statement after Appellee and counsel refused to admit or deny
facts supporting claims of race, color and sex discrimination. Dkt. 33.
• Turning a blind eye to the Appellee’s numerous, undisputed discovery
abuses of HACFL and their counsel.
1. Failed submit Initial Disclosures pursuant to Fed. R. Civ. P. 26. and
never responded to Mrs. Washington’s preliminary discovery
questions;
2. Failed to provide information about the issuance of a litigation hold,
resulting in possible spoliation of evidence;
3. Failed to produce electronically stored information (‘ESI”).
Although the Defendant scanned all physical documents, this does not
constitute ESI; and
4. Refused the Plaintiff to inspect documents: Rule 34(a) provides you
with the right to inspect and copy documents and electronically stored
information, to inspect, copy, test, and sample tangible things; to enter
and to inspect, measure, survey, photograph, test, or sample land and
property; and to observe machinery or manufacturing, production,
distribution, and other business processes.
• Two days after issuing Order denying Appellant’s Motion for
Clarification, Judge Seltzer issued second Report “recommend[ing]” that
seven of the Appellant’s claims of discrimination be dismissed.
• Allowed the Appellant to pursue claim of age discrimination under the
ADEA but dismissed age discrimination claim under its state law
equivalent..

-44-

• Falsely claiming to conduct a de novo review while falsely stating that the.
Appellant had not submitted an objection to Judge Seltzer’s second
Report.
• Refusing to allow the parties an opportunity to have a hearing and/or to
speak under oath
• Refusing to issue ethical judicial opinions. The concept of stare decisis
was thrown out the window and decisions are not grounded in fact or law.
Over the course of nine months, Judge Moreno’s two substantive Orders
which denied all eight of the Appellant’s claims of discrimination, amount
to no more than 5 pages in total while the magistrate judge’s decisions
total more than 3 5 pages.
• Waiting 10 days before trial was scheduled to commence to conclude that
English’s “getting old” comments did not constitute direct evidence of
discrimination.
• Granting summary judgment in favor of HACFL, despite Appellee’s
failure to respond to facts surrounding claims of race, color and sex
discrimination and without deciding Appellant’s Request to Submit More
Sufficient Responses, Dkt. 56.
• Closing the case with more than 8 procedural motions awaiting a decision.
Even a blind man could see that Judges Seltzer and Moreno harbored a pro-employer
bias. In an attempt to prevent this outcome from happening, the Appellant, on numerous
occasions throughout the litigation, sought for Judges Seltzer and Moreno to disqualify
themselves pursuant to 28 U.S.C. §455. Each request was denied, Dkt. 21, while the
finders of fact continued to violate Canons 1, 2 and 3 of the Judicial Code of Conduct,
their Oaths of Office, the U.S. Constitution and various laws. The totality of their
wrongdoing constitutes “fraud upon the Court by the Court.”
As this case demonstrates, plaintiffs, especially those unrepresented by counsel
and/or African Americans, are at a “distinct disadvantage at virtually every stage of the

-45-

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on July 22, 2020,1 filed the original foregoing with the
Clerk of Court. I further certify that I sent a copy of the foregoing document to the
following^
J. Scott Kirk
Rumberger, Kirk & Caldwell
A Professional Association
Lincoln Plaza, Suite 1400
300 South Orange Avenue
Orlando, Florida 32801
skirk@rumberger.com
(Attorney for Defendant)
via United States Postal Service and I further certify that I emailed a copy of the
foregoing document to the following:
LaShawnda K. Jackson
li ackson@rumberger.com
(Attorney for Defendant)

CAROLYN HICKSWASHINGTON
Pro Se Litigant
3613 Lime Hill Road
Lauderhill, Florida 33319
(252) 673-0834
chickswashington@gmail.com

BLUEROCK
LEGAL, P.A.
A

PRIVATE

LAW

FIRM

Direct Dial: (305) 981-4300
Facsimile: (305)981-4304
dgonzalez@bluerocldegal.com

!

February 2,2017
Via; U.S. Mail
Katherine Gonzalez, Investigator
Equal Employment Opportunity Commission
100 S.E. 2nd Street, Suite 1500
Miami, FL 33131

•:

'i
■1

1

Re: Carolyn Washington v. The Housing Authority of the City of Ft. Lauderdale. Florida
EEOC Charge No. 510-2016-02801
Dear Ms. Gonzalez:
As you file will reflect, this law firm represents The Housing Authority of the City of Ft
Lauderdale, Florida (“Respondent”) in defense of the charge of employment discrimination filed
by Carolyn Washington (“Charging Party”). This letter and the attached documents will serve as
the Respondent’s position statement in response to the charge.

i

Preliminary Statement
Respondent is a municipal agency that provides housing opportunities to qualifying
individuals. Respondent administers public housing programs sponsored by the federal, state and
local governments. The Respondent receives partial funding from the U.S. Department of Housing
4od Urban Development (“HUD”), and is required to follow HUD’s strict regulations in managing
communities.
The Charging Party worked for Respondent as the Assistant Director of Section 8 from
2005 to 2010, and as the Assistant Director of Assisted Housing from 2010 to 2015. The
Respondent’s “Section 8” Department is a subsidized housing program in which participants
receive housing subsidies for the rental of housing in the private marketplace. The Housing
Authority administers that program with an internal staff of trained employees who accept
applications, supervise the process ofawarding housing subsidies to applicants, monitor the quality
and care of the living units available to participants, and every other aspect of the program. It is a
busy office performing important work.
:

1
10800 Biscayne Boulevard | Suite 410 | Miami, FL 33161
www.bluerocklegal.com

!

;

•'!

The Charging Party and her supervisor were terminated from employment at the same time
and for the same reasons. The Charging Party could not keep a stable staff of competent personnel
in the department. Ms. Washington had an oppressive management style and, for several years,
employees had resigned from the department citing the way that they had been treated by her.
Employee turnover in the department was extreme during the last year of her employment. The
Charging Party was terminated on November 13,2015. Since then, turnover has moderated.
The present charge is for alleged “age” discrimination. The Charging Party alleges that
she was employed by the Respondent as an Assistant Director of Assisted Housing until she was
“terminated because of [her] age by Executive Director, Tam English, and Chief Financial Officer,
Michael Tadros.” She alleges that Mr. English “on more than one occasion mentioned to my
Supervisor, Veronica Lopez, and I that we were getting older and who do we have to replace us.”
She claims that “[t]his was a pattern or practice” because “in 2010, we were provided with an
additional workload that included a title change, that was previously assigned to” two other
employees. The Charging Party claims that she was discharged on November 16, 2015, and that
she was replaced “by Anita Flores,” who she alleges is “under 40 years of age.” The Charging
Party also claims that she was subjected to hiring discrimination after she applied to the Director
of Housing Choice Voucher Program position and was not given an interview for the position.
She alleges that the reason she was given for her termination was that the Respondent “was moving
in a different direction.”
We have conducted an investigation and we have determined that the charge is entirely
without merit. The Charging Party was terminated for legitimate reasons that had nothing to do
with age discrimination. The Charging Party had a harsh management style that created a difficult
and uncomfortable work environment, increased workplace stress, and decreased employee
morale. The Charging Party’s harsh management style drove many employees away over the
years. The Charging Party’s department had extreme levels of employee turnover and resulting
instability. The Respondent terminated the Charging Party in order to improve its work
environment and maintain a stable workforce.
Background Information

■i

The Charging Party was hired by the Respondent in October, 2005, as the Assistant
Director of Section 8. The Respondent had then and has now three departments, “Section 8,”
“Public Housing,” and “Affordable Housing,99 66 Section 8” is housing voucher program in which
the Respondent provides financial assistance to qualifying residents to aid the residents with their
housing rental costs in the private marketplace. The Respondent does not own any of the
residential properties that are part of Section 8. The residential properties are owned by private
landlords, and qualifying residents use the Housing Authority’s financial assistance to pay rent to
private landlords.
Conversely, in “Public Housing,” the Respondent owns and manages residential properties
and rents out property units to qualifying low-income residents. The Housing Authority operates
and maintains its own properties with local managers and maintenance staff. Rental payments are
made by participants in the program to the Housing Authority, not a private landlord. The
Respondent also has a third department, “Affordable Housing,” in which the Respondent also
2

!

provides affordable bousing owned and is managed by the Respondent for qualifying low-income
residents.
i

The Charging Party was initially employed in Section 8, not Public Housing or Affordable
Housing. As die Assistant Director of Section 8, die Charging Party’s job duties entailed assisting
the Director of Section 8 with running the whole department. This included directly supervising
Section 8 staff, ensuring compliance with federal, state, and local laws and regulations that govern
the Respondent, preparing reports to agencies such as the U.S. Department of Housing and Urban
Development (“HUD”), reviewing applications for Section 8 assistance, training staff members,
and many other duties. The Charging Party worked at an administrative office that has a staff of
approximately 20 employees, though the number of employees working in the department tended
to fluctuate under the Charging Party’s supervision. The Charging Party was directly supervised
by Ms. Veronica Lopez, the Director of Section 8.

■'

j
]

The Charging Party was knowledgeable about Section 8. She had strong knowledge of
housing regulations and how die department was supposed to function. However, a very important
issue with the Charging Party was apparent for some time. She exhibited a harsh and overbearing
management style and inability to get along with the subordinate employees in the department.
She was known to berate employees, make sarcastic and demeaning comments, and deliver
criticism harshly.
The Charging Party received annual performance reviews from her supervisor, Ms. Lopez.
While the reviews were mosdy positive, they contained negative comments about the Charging
Party’s communication with and leadership of employees. The performance reviews are attached
as Exhibit A. These negative comments consistently appeared on her performance reviews
throughout her employment The Charging Party was continually reminded of her mistreatment
of employees. The Housing Authority tolerated this part of her performance for years because of
her valuable knowledge of Section 8 programs, but she continually failed to improve.
The Charging Party’s 2007 performance review noted a complaint by one of the Charging
Party’s subordinates that the Charging Party responded to inquiries “indicating impatience” or
“sarcastic comments” such as “well you guys think you know everything” and “were you not
listening when I explained this to you.” In 2009, her performance review noted that the Charging
Party “may become frustrated in the low performance of employees” and which results in her
“delivering criticism that may be tinged with an opinion on the reason for the employee’s failure
to perform.” The performance review recommended management training so that tire Charging
Party can improve how she delivers criticism. Her 2010 performance review noted that the
Charging Party “needs to learn to monitor her body language to avoid transmitting the wrong
message” and that “she should strive to maintain control of all areas of communication.”
These performance evaluations were completed by the Charging Party’s supervisor,
Veronica Lopez. Ms. Lopez was terminated along with the Charging Party and for the same
reasons as the Charging Party, fomenting instability in the staff in the department

■!

In 2010, the Charging Party’s title was changed to Assistant Director of Assisted Housing,
which included management responsibilities over both Section 8 and Public Housing. She retained
3

;
i

her management responsibilities in Section 8, but the new title added limited supervisory duties
over two community managers in the Public Housing department. Community managers are on­
site managers of the residential properties in Public Housing Department, whose duties include
collecting rent, attending to the needs of residents, inspecting property units, scheduling and
performing maintenance, among other duties. With the title change, the Charging Party supervised
two community managers and several residential properties in the Public Housing Department.
She continued to be directly supervised by Ms. Lopez, who was given the new title of Director of
Assisted Housing. The Respondent added these additional supervisory duties to the Charging
Party and Ms. Lopez because the Respondent was shrinking its Public Housing Department, and
the Charging Party and Ms. Lopez were able to take on management duties of the smaller
department.
The Charging Party’s management style did not improve. A performance review dated
February 2,2011, noted that, when working with subordinates, she must “strive to assure that when
asking open questions she waits until the full response is obtained prior to questioning further and
then giving guidance attempting not to show her frustration through body language.” A second
performance review from 2011, dated September 8, 2011, noted that “she becomes frustrated at
time with some employees’ failure to discharge their duties” and that her frustration “influence[s]
her own delivery of expectations” and that she must improve her delivery of criticism. Her 2012
performance review noted that she must “understand that” employees “are to be evaluated against
performance standards not against each other.” Her 2014 performance review noted that she would
“benefit from training in Conflict Resolution and should seek the opportunity to participate in such
training to assist her in mediating issues arising between employee and/or with her own
subordinates.”
The Charging Party’s management style created a difficult and uncomfortable work
environment that drove many employees away. This created considerable turnover and instability
in the Respondent’s workforce for several years. We have attached as Exhibit B a list of the
employees that abandoned employment with the Respondent over fee years. It is important to note
that Respondent only employs approximately 20 employees at fee office where fee Charging Party
worked, and fee Charging Party also supervised an additional two employees Community
Managers that worked at other locations. In 2012, 12 employees (more than half) terminated
employment. In 2013,9 employees left (nearly half). In 2014,7 employees left.

•)

-!

And finally, in 2015, fee year that fee Charging Party was terminated from employment,
14 employees left fee department. In the year of her termination, nearly 75% of fee employees
working for fee Charging Party left their jobs. In a few cases over fee years, an employee in fee
department had been terminated from employment usually because fee employee did not have the
skills necessary to do fee job. The overwhelming majority of these employees, however, quit their
jobs. The Respondent was consistently turning over an average of greater than 50% of its staff
every year.
Many of fee employees who left specifically cited the Charging Party’s management style
issues as fee reason for leaving. One employee, a Community Manager named Felix Mercedes,
would not even speak to the Charging Party when he resigned. He had started in June, 2013, and
resigned in November, 2014. He went to fee Respondent’s Human Resources Manager, Ms.
4

i
Andrea Ayala, and resigned abruptly. He returned his assigned mobile phone and keys to Ms.
Ayala. Ms. Ayala informed him that he must return his phone and keys to his supervisor, the
Charging Party. Mr. Mercedes refused to be in the same room with the Charging Party. He did
not want to see or speak to the Charging Party. Mr. Mercedes’s resignation was sudden and he
was so emotional that he did not complete an exit interview, which is the Respondent’s standard
procedure for exiting employees.
Several employees who resigned did provide Exit Interviews, and they cited the Charging
Party’s harsh management and the uncomfortable work environment as a reason for their
resignation. Those Exit Interview Forms are attached as Exhibit C. In each attached Exit
Interview, the resigning employee rated the work environment as “Poor” and stated, in response
to a question about whether the employee would want to work for the same supervisor (the
Charging Party) if they returned, that they would not. One employee who resigned, Ms. Anita
Flores, in response to the question of how the Respondent could have prevented her from leaving,
stated “removed me from the supervision of Carolyn Hicks Washington [the Charging Party].”
Ms. Flores resigned in June, 2012.

j

Other resigning employees had similarly negative comments. Ms. Barbara Colas
complained of a poor work environment that included “yelling across the office” and complained
of the “way clients and coworkers were spoken to.” Ms. Raquel Brutus-Thomas stated that her
feelings changed about her position after she was first hired due to “environment and management”
and that the work environment was “stressful and burdensome due to high turnover” and “decrease
in morale. She rated her supervisor (the Charging Party) as “Poor” in the areas of “showing
fairness,” “providing appropriate recognition,” “solving problems promptly,” “following policies
and procedures,” “communicating with staff,” “encouraging feedback,” and “knowing how to do
her job.” She also reported feeling “harassed” by her supervisor “in a maimer to suggest” that
employees “are taking questionable measures to get their work done or required to go beyond the
scope of what is required and/or necessary.”

i

!

The instability caused by the Charging Party created staffing problems for the Respondent.
The work in the Section 8 Department can be, at times, stressful and can require long hours. But
the staff shortages occasioned by the Charging Party made matters much worse. The Respondent
was continuously understaffed, which forced other employees to take on extra work. Employees
were often required to work late into the night and occasionally on weekends to complete the work.
This dynamic had the effect of further reducing employee morale.
The Respondent’s Executive Director, Mr. Tam English, had been concerned about the
excessive turnover for some time by the time he made the decision to terminate the Charging Party.
While he realized that any employer will have some natural turnover, he was concerned that the
turnover in Section 8 was far greater than any other agency in the area. The Housing Authority of
Broward County, for example, had a staff of employees that reportedly enjoyed working for them
and that there was very little turnover.
Mr. English decided that a change needed to be made to improve employee morale and to
maintain a stable workforce. He decided that the Charging Party and Ms. Lopez needed to be

5

I
terminated and new management hired. Thus, on November 13,2015,1 Mr. English met with the
Charging Party and informed her of her termination from employment. Mr. English told the
Charging Party that the Respondent was “moving in another direction.” The Respondent
reorganized its management structure, which included eliminating the Charging Party’s position
after she was terminated. Mr. English declined to discuss the details with the Charging Party for
two reasons. First, the Charging Party was well aware of her overbearing management style, the
low employee morale, and excessive turnover in her department The second reason was to protect
the Charging Party’s future employment prospects. As the Respondent is a government agency,
Mr. English knew that the reason for the Charging Party’s termination would become part of the
public record. Mr. English did not desire to limit the Charging Party’s future job prospects by
unnecessarily discussing the negative details in the public record.

!

;

The Charging Party’s claim in the charge that she was replaced by Anita Flores is false.
The Respondent did not replace the Charging Party. Instead, the Respondent eliminated her
position and only hired a new Director of Assisted Housing to replace Ms. Lopez. The person
who was hired as the Director of Assisted Housing was Ms. Medina Johnson-Jennings. It is also
false that the Charging Party was replaced by someone “under 40 years of age,” as alleged in the
charge. Ms. Johnson was 43 years of age at the time she was hired.

i

Ms. Flores was rehired by the Respondent shortly before the Charging Party was
terminated. She was rehired as a Community Manager in the Affordable Housing department.
She was placed at a residential property in the Public Housing department taking care of
maintenance, collecting rent, inspecting units, and performing other managerial duties at the
property. She was rehired into that position because she expressly refused to work with the
Charging Party. She was not rehired to the Charging Party’s position.
Ms. Flares had previously been employed as an “Intake Coordinator” under die supervision
of the Charging Party, and her job duties included reviewing and processing applications for
Section 8 assistance and supervising intake staff. She resigned in January, 2015, and her Exit
Interview is attached. She resigned because she said that she could no longer stand working under
the Charging Party. Ms. Flores applied to be a Community Manager in die Affordable Housing
department because that position placed her at a residential property and away from the Charging
Party and Ms. Lopez. At the time that she was rehired, Ms. Flores was not aware that the Charging
Party and Ms. Lopez might be terminated.
After the Charging Party had been terminated, Ms. Flores was offered a transfer to her prior
position of Intake Coordinator in Section 8. She accepted the transfer, as she knew that she would
no longer have contact with the Charging Party and Ms. Lopez in that position. Ms. Flores is still
currently employed as an Intake Coordinator by the Respondent. She was never employed as
Assistant Director of Assisted Housing, die Charging Party’s former role.
After terminating the Charging Party, the Respondent saw an immediate improvement in
its retention of employees. In 2016, the year after the Charging Party was terminated, there were
only 5 employees turned over in the Section 8 office, a remarkable decrease from the 14 that were
■3

I

* Although the charge alleges that her termination was on November 16, 2015, the Charging Party was actually
terminated on November 13,2015.

6

turned over in the prior year of 2015. This was the Respondent’s lowest number of employee
turnover since 2011.
The Charging Party applied after her termination for a vacancy as Director of Assisted
Housing. She was not given an interview. The position that she applied for as Director of Assisted
Housing had more responsibility than her prior position as Assistant Director of Assisted Housing.
In other words, the Charging Party was applying for her boss’ former job as the head of the
Department
The Respondent had just terminated the Charging Party for all of the reasons set forth
above. The Respondent was certainly not going to “promote” her by rehiring her to an even higher
management position after just having terminated her. The Charging Party was essentially asking
for a promotion to her former supervisor’s job after having just been terminated from her own job.
The reasons for not having granted her an interview for this position are obvious.
The Charging Party’s claim in the charge that that Mr. English ever said to the Charging
Party that she was “getting older” or anything to that effect is a simple falsehood. The Charging
Party simply fabricated that claim. There is absolutely no evidence that Mr. English ever
considered the Charging Party’s age.
It is worth noting that the Charging Party has claimed on prior occasions that her
termination was premised on a variety of protected status. On December 4, 2015, after the
Charging Party was terminated, she sent a letter to the Respondent where she made outlandish and
unsupported accusations claiming that she was terminated because of her “race, color, gender, and
age discrimination.” The letter is attached as Exhibit D.
.1

The present charge is for age discrimination. That claim has no more merit than the other
claims for race, color and gender discrimination that have now been implicitly abandoned by the
Charging Party.
The present charge should be dismissed.
Sincere!;
Daniel Eric Gonzalez

;
!

[

1

District Court allowed the Appellee and its counsel to avoid producing any evidence
that would impeach their defense, and before deciding two of the Plaintiff s Motions
to Compel Judge Seltzer recommended dismissing all of the Plaintiffs claims.
Neither of the judges' “final decisions” on the merits discuss the actual language
contained in the federal antidiscrimination laws cited in this case.26 Since every case is
unique, the “McDonnell Douglas prima facie case does not account for every act of
discrimination that Title VII seeks to redress.”27 The tripartite formula is also not an
“inflexible rule” nor meant to be applied rigidly. Teamsters at 358. Although the judges
relied solely on the McDonnell Douglas tripartite formula to determine whether or not
the Appellant was discriminated against, they should have looked at Title VIPs
statutory language. The finder of fact had to begin there, when making a determination
of whether or not race, color, sex and/or age motivated the adverse employment
decisions taken against an employee.
The bullet points below contain a list of the additional procedural decisions made
by Judges Seltzer and Moreno, which have intentionally obstructed justice and deprived

26 Section 703(a) of Title VII states that it is a violation of this law for an employer
(1) tp faxl or refuse to hire or to discharge any individual, or otherwise to discriminate against anv

C01,<1itj0M’ °r privfle8es of emplovmeci-becauae nf"»»
(2) to
in
. limit...employees
-----------any
way which would deprive or tend to deprive anv individual 0f
ggployment opportunities or otherwise adversely affect his status as an employee, because of such
individual s race, color, religion, sex, or national origin, (emphasis added) 47 tt q r =; onnp0 2fat
Zac Pestme. “Securing Title VII’s Purpose: Ensuring That We Have All of the Puzzle Pieces to Solve
Employment
Discrimination
Claims”
2016
i^naU^^fab°rMderaPlOyinentCOnege'Or8/imageS/pdfS/OCtOber2016neWSletter/UT1COnsciousBiasDiscr
-43-

the Appellant of her constitutional right to due process and equal protection under the
V and XIV Amendments to the U.S. Constitution:
• Allowed the HACFL to file an Answer and Affirmative Defenses only
responding to the Appellant’s federal claim of age discrimination (Count
• Struck paragraphs concerning the EEOC’s investigation per the
Appellee s request, knowing that those facts demonstrated that the
Appellee’s counsel were raising frivolous defenses in violation of Fed.
r
R- Civ. P. 11.
• Refusing to allow for Fed. R. Civ. P. 26(f) conference.
• Denying Appellant’s January 30, 2019 Motion for Clarification/More
Definite Statement after Appellee and counsel refused to admit or deny
facts supporting claims of race, color and sex discrimination. Dkt. 33.
• Turning a blind eye to the Appellee’s numerous, undisputed discovery
abuses of HACFL and their counsel.
1. Failed submit Initial Disclosures pursuant to Fed. R. Civ. P. 26. and
never responded to Mrs. Washington’s preliminary discovery
questions;
2. Failed to provide infoimation about the issuance of a litigation hold,
resulting in possible spoliation of evidence;
3. Failed to produce electronically stored information (‘ESI”).
Although the Defendant scanned all physical documents, this does not
constitute ESI; and
4. Refused the Plaintiff to inspect documents: Rule 34(a) provides you
with the right to inspect and copy documents and electronically stored
information, to inspect, copy, test, and sample tangible things; to enter
and to inspect, measure, survey, photograph, test, or sample land and
property, and to observe machinery or manufacturing, production,
distribution, and other business processes.
• Two days after issuing Order denying Appellant’s Motion for
Clarification, Judge Seltzer issued second Report “recommend[ing]” that
seven of the Appellant s claims of discrimination be dismissed.
• Allowed the Appellant to pursue claim of age discrimination under the
ADEA but dismissed age discrimination claim under its state law
equivalent.

-44-

• Falsely claiming to conduct a de novo review while falsely stating that the
Appellant had not submitted an objection to Judge Seltzer’s second
Report.
• Refusing to allow the parties an opportunity to have a hearing and/or to
speak under oath
• Refusing to issue ethical judicial opinions. The concept of stare decisis
w'as thrown out the window and decisions are not grounded in fact or law.
Over the course of nine months, Judge Moreno’s two substantive Orders
which denied all eight of the Appellant’s claims of discrimination, amount
to no more than 5 pages in total while the magistrate judge’s decisions
total more than 35 pages.
• Waiting 10 days before trial was scheduled to commence to conclude that
English’s “getting old” comments did not constitute direct evidence of
discrimination.
• Granting summary judgment in favor of HACFL, despite Appellee’s
failure to respond to facts surrounding claims of race, color and sex
discrimination and without deciding Appellant’s Request to Submit More
Sufficient Responses, Dkt. 56.
• Closing the case with more than 8 procedural motions awaiting a decision.
Even a blind man could see that Judges Seltzer and Moreno harbored a pro-employer
bias. In an attempt to prevent this outcome from happening, the Appellant, on numerous
occasions throughout the litigation, sought for Judges Seltzer and Moreno to disqualify
themselves pursuant to 28 U.S.C. §455. Each request was denied, Dkt. 21, while the
finders of fact continued to violate Canons 1, 2 and 3 of the Judicial Code of Conduct,
their Oaths of Office, the U.S. Constitution and various laws. The totality of their
wrongdoing constitutes “fraud upon the Court by the Court.”
As this case demonstrates, plaintiffs, especially those unrepresented by counsel
and/or African Americans, are at a “distinct disadvantage at virtually every stage of the

-45-

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on July 22, 2020,1 filed the original foregoing with the
Clerk of Court. I further certify that I sent a copy of the foregoing document to the
following^
J. Scott Kirk
Rumberger, Kirk & Caldwell
A Professional Association
Lincoln Plaza, Suite 1400
300 South Orange Avenue
Orlando, Florida 32801
skirk@rumberger.com
(Attorney for Defendant)
via United States Postal Service and I further certify that I e-mailed a copy of the
foregoing document to the following;
LaShawnda K. Jackson
li ackson@rumberger.com
(Attorney for Defendant)

CAROLYN HICKS-WASHINGTON
Pro Se Litigant
3613 Lime Hill Road
Lauderhill, Florida 33319
(252) 673-0834
chickswashington@gmail.com

?S5

BLUEROCK
LEGAL, P.A.
A

PRIVATE

LAW

P

R M

Direct Dial: (305) 981-4300
Facsimile: (305)981-4304
dgonzalez@bluerocklegal.com

I!
February 2,2017

;

"1

Via: U.S. Matt
Katherine Gonzalez, Investigator
Equal Employment Opportunity Commission
100 S.E. 2nd Street, Suite 1500
Miami, FL 33131
Re: Carolyn Washington v. The Housing Authority of the City of Ft. Lauderdale. Florida
EEOC Charge No. 510-2016-02801
Dear Ms. Gonzalez:

i

As you file will reflect, this law firm represente The Housing Authority of the City of Ft
Lauderdale, Florida (“Respondent”) in defense of the charge of employment discrimination filed
by Carolyn Washington (“Charging Party”). This letter and the attached documents will serve as
the Respondent’s position statement in response to die charge.
Preliminary Statement
Respondent is a municipal agency that provides housing opportunities to qualifying
individuals. Respondent administers public housing programs sponsored by the federal, state and
local governments. The Respondent receives partial funding from the U.S. Department ofHousing
and Urban Development (“HUD”), and is required to follow HUD’s strict regulations in managing
communities.
The Charging Party worked for Respondent as the Assistant Director of Section 8 from
2005 to 2010, and as the Assistant Director of Assisted Housing from 2010 to 2015. The
Respondent’s “Section 8” Department is a subsidized housing program in which participants
receive housing subsidies for the rental of housing in the private marketplace. The Housing
Authority administers that program with an internal staff of trained employees who accept
applications, supervise the process ofawarding housing subsidies to applicants, monitor the quality
and care of the living units available to participants, and every other aspect of the program. It is a
busy office performing important work.

1
10800 Biscayne Boulevard | Suite410 [ Miami,FL33161
www.bluerocklegal.com

'!

i

The Charging Party and her supervisor were terminated from employment at the same time
and for the same reasons. The Charging Party could not keep a stable staff of competent personnel
in the department. Ms. Washington had an oppressive management style and, for several years,
employees had resigned from the department citing the way that they had been treated by her.
Employee turnover in the department was extreme during the last year of her employment. The
Charging Party was terminated on November 13,2015. Since then, turnover has moderated.

■i

;

The present charge is for alleged “age” discrimination. The Charging Party alleges that
die was employed by the Respondent as an Assistant Director of Assisted Housing until she was
“terminated because of [her] age by Executive Director, Tam English, and Chief Financial Officer,
Michael Tadros.” She alleges that Mr. English “on more than one occasion mentioned to my
Supervisor, Veronica Lopez, and I that we were getting older and who do we have to replace us.”
She claims that “(t]his was a pattern or practice” because “in 2010, we were provided with an
additional workload that included a title change, that was previously assigned to” two other
employees. The Charging Party claims that she was discharged on November 16, 2015, and that
she was replaced “by Anita Flores,” who she alleges is “under 40 years of age.” The Charging
Party also claims that she was subjected to hiring discrimination after she applied to the Director
of Housing Choice Voucher Program position and was not given an interview for the position.
She alleges that the reason she was given for her termination was that the Respondent “was moving
in a different direction.”
We have conducted an investigation and we have determined that the charge is entirely
without merit. The Charging Party was terminated for legitimate reasons that had nothing to do
with age discrimination. The Charging Party had a harsh management style that created a difficult
and uncomfortable work environment, increased workplace stress, and decreased employee
morale. The Charging Party’s harsh management style drove many employees away over the
years. The Charging Party’s department had extreme levels of employee turnover and resulting
instability. The Respondent terminated the Charging Party in order to improve its work
environment and maintain a stable workforce.
Background Information
The Charging Party was hired by the Respondent in October, 2005, as the Assistant
Director of Section 8. The Respondent had then and has now three departments, “Section 8,”
“Public Housing,” and “Affordable Housing.” “Section 8” is housing voucher program in which
the Respondent provides financial assistance to qualifying residents to aid the residents with their
housing rental costs in the private marketplace. The Respondent does not own any of the
residential properties that are part of Section 8. The residential properties are owned by private
landlords, and qualifying residents use the Housing Authority’s financial assistance to pay rent to
private landlords.
Conversely, in “Public Housing,” the Respondent owns and manages residential properties
and rents out property units to qualifying low-income residents. The Housing Authority operates
and maintains its own properties with local managers and maintenance staff. Rental payments are
made by participants in the program to the Housing Authority, not a private landlord. The
Respondent also has a third department, “Affordable Housing,” in which the Respondent also
2

provides affordable housing owned and is managed by the Respondent for qualifying low-income
residents.
j

■!

i

The Charging Party was initially employed in Section 8, not Public Housing or Affordable
Housing. As the Assistant Director of Section 8, the Charging Party’s job duties entailed assisting
the Director of Section 8 with running the whole department This included directly supervising
Section 8 staff, ensuring compliance with federal, state, and local laws and regulations that govern
the Respondent preparing reports to agencies such as the U.S. Department of Housing and Urban
Development (“HUD”), reviewing applications for Section 8 assistance, training staff members,
and many other duties. The Charging Party worked at an administrative office that has a staff of
approximately 20 employees, though the number of employees working in the department tended
to fluctuate under the Charging Party’s supervision. The Charging Party was directly supervised
by Ms. Veronica Lopez, the Director of Section 8.
The Charging Party was knowledgeable about Section 8. She had strong knowledge of
housing regulations and how the department was supposed to function. However, a very important
issue with the Charging Party was apparent for some time. She exhibited a harsh and overbearing
management style and inability to get along with the subordinate employees in the department.
She was known to berate employees, make sarcastic and demeaning comments, and deliver
criticism harshly.
The Charging Party received annual performance reviews from her supervisor, Ms. Lopez.
While the reviews were mostly positive, they contained negative comments about the Charging
Party’s communication with and leadership of employees. The performance reviews are attached
as Exhibit A. These negative comments consistently appeared on her performance reviews
throughout her employment The Charging Party was continually reminded of her mistreatment
of employees. The Housing Authority tolerated this part of her performance for years because of
her valuable knowledge of Section 8 programs, but she continually failed to improve.
The Charging Party’s 2007 performance review noted a complaint by one of the Charging
Party’s subordinates that the Charging Party responded to inquiries “indicating impatience” or
“sarcastic comments” such as “well you guys think you know everything” and “were you not
listening when I explained this to you.” In 2009, her performance review noted that the Charging
Party “may become frustrated in the low performance of employees” and which results in her
“delivering criticism that may be tinged with an opinion on the reason for the employee’s failure
to perform.” The performance review recommended management training so that the Charging
Party can improve how she delivers criticism. Her 2010 performance review noted that the
Charging Party “needs to learn to monitor her body language to avoid transmitting the wrong
message” and that “she should strive to maintain control of all areas of communication.”
These performance evaluations were completed by the Charging Party’s supervisor,
Veronica Lopez. Ms. Lopez was terminated along with the Charging Party and for foe same
reasons as foe Charging Party, fomenting instability in foe staff in foe department.
In 2010, foe Charging Party’s title was changed to Assistant Director of Assisted Housing,
which included management responsibilities over both Section 8 and Public Housing. She retain^
3

her management responsibilities in Section 8, but the new title added limited supervisory duties
over two community managers in the Public Housing department. Community managers are on­
site managers of the residential properties in Public Housing Department, whose duties include
collecting rent, attending to die needs of residents, inspecting property units, scheduling and
performing maintenance, among other duties. With the title change, the Charging Party supervised
two community managers and several residential properties in the Public Housing Department.
She continued to be directly supervised by Ms. Lopez, who was given the new title of Director of
Assisted Housing. The Respondent added these additional supervisory duties to the Charging
Party and Ms. Lopez because the Respondeat was shrinking its Public Housing Department, and
the Charging Party and Ms. Lopez were able to take on management duties of the smaller
department.
The Charging Party’s management style did not improve. A performance review dated
February 2,2011, noted that, when working with subordinates, she must “strive to assure that when
asking open questions she waits until the full response is obtained prior to questioning further and
then giving guidance attempting not to show her frustration through body language.” A second
performance review from 2011, dated September 8, 2011, noted that “she becomes frustrated at
time with some employees’ failure to discharge their duties” and that her frustration “influence[s]
her own delivery of expectations” and that she must improve her delivery of criticism. Her 2012
performance review noted that she must “understand that” employees “are to be evaluated against
performance standards not against each other.” Her 2014 performance review noted that she would
“benefit from training in Conflict Resolution and should seek the opportunity to participate in such
training to assist her in mediating issues arising between employee and/or with her own
subordinates.”

j

The Charging Party’s management style created a difficult and uncomfortable work
environment that drove many employees away. This created considerable turnover and instability
in the Respondent’s workforce for several years. We have attached as Exhibit B a list of the
employees that abandoned employment with the Respondent over the years. It is important to note
that Respondent only employs approximately 20 employees at the office where the Charging Party
worked, and the Charging Party also supervised an additional two employees Community
Managers that worked at other locations. In 2012, 12 employees (more than half) terminated
employment. In 2013,9 employees left (nearly half). In 2014,7 employees left.
And finally, in 2015, the year that the Charging Party was terminated from employment,
14 employees left the department. In the year of her termination, nearly 75% of the employees
working for the Charging Party left their jobs. In a few cases over the years, an employee in the
department had been terminated from employment usually because the employee did not have the
skills necessary to do the job. The overwhelming majority of these employees, however, quit their
jobs. The Respondent was consistently turning over an average of greater than 50% of its staff
every year.

i\

Many of the employees who left specifically cited the Charging Party’s managp.mpnt style
issues as the reason for leaving. One employee, a Community Manager named Felix Mercedes,
would not even speak to the Charging Party when he resigned. He had started in June, 2013, and
resigned in November, 2014. He went to the Respondent’s Human Resources Manager, Ms.
4

i
Andrea Ayala, and resigned abruptly. He returned his assigned mobile phone and keys to Ms.
Ayala. Ms. Ayala informed him that he must return his phone and keys to his supervisor, the
Charging Party. Mr. Mercedes refused to be in the same room with the Charging Party. He did
not want to see or speak to the Charging Party. Mr. Mercedes’s resignation was sudden and he
was so emotional that he did not complete an exit interview, which is the Respondent’s standard
procedure for exiting employees.
Several employees who resigned did provide Exit Interviews, and they cited the Charging
Party’s harsh management and the uncomfortable work environment as a reason for their
resignation. Those Exit Interview Forms are attached as Exhibit C. In each attached Exit
Interview, the resigning employee rated the work environment as “Poor” and stated, in response
to a question about whether the employee would want to work for the same supervisor (the
Charging Party) if they returned, that they would not. One employee who resigned, Ms. Anita
Flores, in response to die question of how the Respondent could have prevented her from leaving,
stated “removed me from the supervision of Carolyn Hicks Washington [the Charging Party].”
Ms. Flores resigned in June, 2012.

1

Other resigning employees had similarly negative comments. Ms. Barbara Colas
complained of a poor work environment that included “yelling across the office” and complained
of the “way clients and coworkers were spoken to.” Ms. Raquel Brutus-Thomas stated that her
feelings changed about her position after she was first hired due to “environment and management”
and that the work environment was “stressful and burdensome due to high turnover” and “decrease
in morale. She rated her supervisor (the Charging Party) as “Poor” in the areas of “showing
fairness,” ‘‘providing appropriate recognition,” “solving problems promptly,” “following policies
and procedures,” “communicating with staff,” “encouraging feedback,” and “knowing how to do
her job.” She also reported feeling “harassed” by her supervisor “in a manner to suggest” that
employees “are taking questionable measures to get their work done or required to go beyond the
scope of what is required and/or necessary.”

i

The instability caused by the Charging Party created staffing problems for the Respondent.
The work in the Section 8 Department can be, at times, stressful and can require long hours. But
the staff shortages occasioned by the Charging Party made matters much worse. The Respondent
was continuously understaffed, which forced other employees to take on extra work. Employees
were often required to work late into Ihe night and occasionally on weekends to complete the work.
This dynamic had the effect of further reducing employee morale.

■!

;

\

I

The Respondent’s Executive Director, Mr. Tam English, had been concerned about the
excessive turnover for some time by the time he made the decision to terminate the Charging Party.
While he realized that any employer will have some natural turnover, he was concerned that the
turnover in Section 8 was for greater than any other agency in the area. The Housing Authority of
Broward County, for example, had a staff of employees that reportedly enjoyed working for them
and that there was very little turnover.
Mr. English decided that a change needed to be made to improve employee morale and to
maintain a stable workforce. He decided that the Charging Party and Ms. Lopez needed to be

;

5

j

:

terminated and new management hired. Thus, on November 13,2015,1 Mr. English met with the
Charging Party and informed her of her termination from employment. Mr. English told the
Charging Party that the Respondent was “moving in another direction.” The Respondent
reorganized its management structure, which included eliminating the Charging Party’s position
after she was terminated. Mr. English declined to discuss the details with the Charging Party for
two reasons. First, the Charging Party was well aware of her overbearing management style, the
low employee morale, and excessive turnover in her department. The second reason was to protect
the Charging Party’s future employment prospects. As the Respondent is a government agency,
Mr. English knew that the reason for the Charging Party’s termination would become part of the
public record. Mr. English did not desire to limit the Charging Party’s future job prospects by
unnecessarily discussing the negative details in the public record.

i

The Charging Party’s claim in the charge that she was replaced by Anita Flores is false.
The Respondent did not replace the Charging Party. Instead, the Respondent eliminated her
position and only hired a new Director of Assisted Housing to replace Ms. Lopez. The person
who was hired as the Director of Assisted Housing was Ms. Medina Johnson-Jennings. It is also
false that the Charging Party was replaced by someone “under 40 years of age,” as alleged in the
charge. Ms. Johnson was 43 years of age at the time she was hired.
Ms. Flores was rehired by the Respondent shortly before the Charging Party was
terminated. She was rehired as a Community Manager in the Affordable Housing department.
She was placed at a residential property in the Public Housing department taking care of
maintenance, collecting rent, inspecting units, and performing other managerial duties at the
property. She was rehired into that position because she expressly refused to work with the
Charging Party. She was not rehired to the Charging Party’s position.

j

Ms. Flores had previously been employed as an “Intake Coordinator” under the supervision
of the Charging Party, and her job duties included reviewing and processing applications for
Section 8 assistance and supervising intake staff. She resigned in January, 2015, and her Exit
Interview is attached. She resigned because she said that she could no longer stand working under
the Charging Party. Ms. Flores applied to be a Community Manager in the Affordable Housing
department because that position placed her at a residential property and away from the Charging
Party and Ms. Lopez. At the time that she was rehired, Ms. Flores was not aware that the Charging
Party and Ms. Lopez might be terminated.
After the Charging Party had been terminated, Ms. Flores was offered a transfer to her prior
position of Intake Coordinator in Section 8. She accepted the transfer, as she knew that she would
no longer have contact with the Charging Party and Ms. Lopez in that position. Ms. Flores is still
currently employed as an Intake Coordinator by the Respondent. She was never employed as
Assistant Director of Assisted Housing, the Charging Party’s former role.
After terminating the Charging Party, the Respondent saw an immediate improvement in
its retention of employees. In 2016, the year after the Charging Party was terminated, there were
only 5 employees turned over in the Section 8 office, a remarkable decrease from the 14 that were

•A

1 Although die charge alleges that her termination was on November 16, 2015, the Charging Party was actually
terminated on November 13,2015.

6

t

I

turned over in the prior year of 2015. This was the Respondent’s lowest number of employee
turnover since 2011.
The Charging Party applied alter her termination for a vacancy as Director of Assisted
Housing. She was not given an interview. The position that she applied for as Director of Assisted
Housing had more responsibility than her prior position as Assistant Director of Assisted Housing.
In other words, the Charging Party was applying for her boss’ former job as the head of the
Department
:]

The Respondent had just terminated the Charging Party for all of the reasons set forth
above. The Respondent was certainly not going to “promote” her by rehiring her to an even higher
management position after just having terminated her. The Charging Party was essentially asking
for a promotion to her former supervisor’s job after having just been terminated from her own job.
The reasons for not having granted her an interview for this position are obvious.
The Charging Party’s claim in the charge that that Mr. English ever said to the Charging
Party that she was “getting older” or anything to that effect is a simple falsehood. The Charging
Party simply fabricated that claim. There is absolutely no evidence that Mr. English ever
considered the Charging Party’s age.
It is worth noting that the Charging Party has claimed on prior occasions that her
termination was premised on a variety of protected status. On December 4, 2015, after the
Charging Party was terminated, she sent a letter to die Respondent where she made outlandish and
unsupported accusations claiming that she was terminated because of her “race, color, gender, and
age discrimination.” The letter is attached as Exhibit D.
The present charge is for age discrimination. That claim has no more merit than the other
claims for race, color and gender discrimination that have now been implicitly abandoned by the
Charging Party.
The present charge should be dismissed.

i

Sincere!;
Daniel Eric Gonzalez

;
!
I

■:

7

Appendix K

u

District Court allowed the Appellee and its counsel to avoid producing any evidence
that'would impeach their defense, and before deciding two of the Plaintiffs Motions
to Compel. Judge Seltzer recommended dismissing all of the Plaintiffs claims.
f

'

i

f
*

-

■

'

i.

fT
•

.
W

•-

■*
•

\

-.1

.1,

Neither of the judges final decisions'5 on the merits discuss the actual language
1

-

X,.

• • .j

*,

contained in the federal antidiscrimination laws cited in'this case.26 Since every case is
i

.

.

i

unique, the “McDonnell Douglas prima. facie case does not account for every act of
discrimination that Title VII .seeks to redress/527 The tripartite formula is also not an
•

.

, '

\

i

I

-

“inflexible rule55 nor meant to be applied rigidly. Teamsters at 358. Although^the judges
relied solely on the McDonnell Douglas tripartite formula to determine'whether or not
the Appellant was discriminated'against, they should-have looked at Title VH’s
T • 1 -

statutory language. The finder of fact had to begin there, when making a determination
ii

.

of whether or not race, color, sex and/or age t motivated: the adverse employment
> .i

i. *

decisions taken against an employee.

' .H/t;

,4.

*4 »-

!

The bullet points.below contain a list of the additional procedural decisions made
by Judges Seltzer and Moreno; wiiich have intentionally obstmcted justice and deprived
t'

1. '

0

.

k

U.

*

3
'-r'

*

-f-

-

•

'

1 .

.

Section 7°3(a) of Title VII states that it is a violation of this law for an employer:
(1) tojail or refuse to hire or to discharge any individual, or otherwise to discriminate apam«t o„Y

rJTJT:co°diw-nr
■ ' t

(2) to limit...employees in

'

^

°f

Sat!^dfabOranderaPlOymentCOllegeOrg/imageS/pdfS/°CtOber2016neWsletter/UnconsciousBiasDiscr
-43-

• Falsely claiming to conduct a de novo review while falsely stating that the.
Appellant had not submitted an objection to Judge Seltzer’s second
Report.
• Refusing to allow the parties an opportunity to have a hearing and/or to
speak under oath
• Refusing to issue ethical judicial opinions. The concept of stare decisis
was thrown out the window and decisions are not grounded in fact or law.
Over the course of nine months, Judge Moreno’s two substantive Orders
which denied all eight of the Appellant’s claims of discrimination, amount
to no more than 5 pages in total while the magistrate judge’s decisions
total more than 35 pages.
• Waiting 10 days before trial was scheduled to commence to conclude that
English’s “getting old” comments did not constitute direct evidence of
discrimination.
• Granting summary judgment in favor of HACFL, despite Appellee’s
failure to respond to facts surrounding claims of race, color and sex
discrimination and without deciding Appellant’s Request to Submit More
Sufficient Responses, Dkt. 56.
• Closing the case with more than 8 procedural motions awaiting a decision.
Even a blind man could see that Judges Seltzer and Moreno harbored a pro-employer
bias. In an attempt to prevent this outcome from happening, the Appellant, on numerous
occasions throughout the litigation, sought for Judges Seltzer and Moreno to disqualify
themselves pursuant to 28 U.S.C. §455. Each request was denied, Dkt. 21, while the
finders of fact continued to violate Canons 1, 2 and 3 of the Judicial Code of Conduct,
their Oaths of Office, the U.S. Constitution and various laws. The totality of their
wrongdoing constitutes “fraud upon the Court by the Court.”
As this case demonstrates, plaintiffs, especially those unrepresented by counsel
and/or African Americans, are at a “distinct disadvantage at virtually every stage of the

-45-

